<html>
<title> - OVERSIGHT HEARING ON IMPLEMENTING THE COBELL SETTLEMENT: MISSED OPPORTUNITIES AND LESSONS LEARNED</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






 IMPLEMENTING THE COBELL SETTLEMENT: MISSED OPPORTUNITIES AND LESSONS 
                                LEARNED

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON INDIAN AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, April 3, 2014

                               __________

                           Serial No. 113-67

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-534 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Rauul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Caardenas, CA
Paul A. Gosar, AZ                    Jared Huffman, CA
Rauul R. Labrador, ID                Raul Ruiz, CA
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Steve Daines, MT                     Katherine M. Clark, MA
Kevin Cramer, ND                     Vacancy
Doug LaMalfa, CA
Jason T. Smith, MO
Vance M. McAllister, LA
Bradley Byrne, AL

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

            SUBCOMMITTEE ON INDIAN AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
           COLLEEN W. HANABUSA, HI, Ranking Democratic Member

Dan Benishek, MI                     Tony Caardenas, CA
Paul A. Gosar, AZ                    Raul Ruiz, CA
Markwayne Mullin, OK                 Eni F. H. Faleomavaega, AS
Steve Daines, MT                     Rauul M. Grijalva, AZ
Kevin Cramer, ND                     Peter A. DeFazio, OR, ex officio
Doug LaMalfa, CA
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                               ----------                              
                                                                   Page

Hearing held on Thursday, April 3, 2014..........................     1

Statement of Members:
    Hanabusa, Hon. Colleen W., a Representative in Congress from 
      the State of Hawaii........................................     3
        Prepared statement of....................................     5
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Azure, Mark L., President, Fort Belknap Tribal Council, Fort 
      Belknap Indian Community...................................    39
        Prepared statement of....................................    40
    Berrey, John, Chairman, Quapaw Tribe of Oklahoma.............    24
        Prepared statement of....................................    26
    Burke, Gary, Chairman, Confederated Tribes of the Umatilla 
      Indian Reservation.........................................    33
        Prepared statement of....................................    34
        Questions submitted for the record.......................    38
    Finley, Michael O., Chairman, Confederated Tribes of the 
      Colville Reservation.......................................    19
        Prepared statement of....................................    21
        Questions submitted for the record.......................    23
    Roberts, Lawrence S., Principal Deputy Assistant Secretary, 
      Indian Affairs, U.S. Department of the Interior............     7
        Prepared statement of....................................     9
        Questions submitted for the record.......................    11
    Stafne, Grant, Councilman, Tribal Executive Board, Fort Peck 
      Assiniboine and Sioux Tribes...............................    42
        Prepared statement of....................................    43
        Questions submitted for the record.......................    47

Additional Materials Submitted for the Record:
    DeFazio, Hon. Peter A., a Representative in Congress from the 
      State of Oregon, Prepared statement of.....................    54
    Grijalva, Hon. Rauul M., a Representative in Congress from 
      the State of Arizona, Prepared statement of................    54
                                     


 
    OVERSIGHT HEARING ON IMPLEMENTING THE COBELL SETTLEMENT: MISSED 
                   OPPORTUNITIES AND LESSONS LEARNED

                              ----------                              


                        Thursday, April 3, 2014

                     U.S. House of Representatives

            Subcommittee on Indian and Alaska Native Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 1324, Longworth House Office Building, Hon. Don Young 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Young, Daines, Hastings, Hanabusa, 
and Grijalva.
    Mr. Young. The subcommittee will come to order. I note a 
presence of a quorum. We are meeting here today to hear 
testimony on implementing the Cobell Settlement. And under the 
Committee Rule there will be an opening statement by the 
Chairman and the Ranking Member, and anybody else can submit 
their statements.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Before we start the day's hearing I want to say 
a word about Jimmy Newton, Chairman of the Southern Ute Indian 
Tribe. Chairman Newton passed away on Monday at the age of 37. 
Jimmy began his service to the Southern Ute Indian Tribe 2003. 
In 2011 he was the youngest person to be elected to lead the 
tribe. Jimmy often traveled to Washington to advocate for his 
tribe, as well as the Ute Mountain Utes and the Utes of Utah.
    Under his leadership, the Southern Ute Tribe continued in 
its role as premier Indian tribal producer of natural gas and 
other resources, and sought to assist other tribes to improve 
their economic lives and the lives of their people. Men of 
Jimmy's character and compassion are rare, and we were lucky to 
have known him, even for the brief period he was with us.
    Today the subcommittee will review the Land Buy-Back 
Program of the Tribal Nations. This is a $1.9 billion program 
through which the Secretary of the Interior will purchase, on a 
willing-seller basis, fractionated Indian lands and consolidate 
them in tribal ownership. Fractionation is a phenomenon that 
has plagued Indian Country for more than a century, and is the 
major reason why large tracts of Indian lands are unused.
    I voted for the Claims Resolution Act, but it was with 
reservations. Several aspects of the deal were flawed, and 
neither the administration nor the plaintiffs agreed to fix 
them. While then-Ranking Member Doc Hastings filed an amendment 
to improve the Settlement in accordance with resolutions 
adopted by major tribal organizations, House Majority Democrat 
leaders refused to allow any changes. Nevertheless, Congress 
determined that with its flaws, the deal was better than more 
years of fruitless litigation.
    Unfortunately, the Settlement's flaws identified by tribal 
leaders and the major tribal associations in 2010 are causing 
real problems that we will hear about today. The purpose of 
today's hearing is to examine what is going on with the Buy-
Back Program, what is going wrong with it, what is going right 
with it, and what can Congress do to improve it in consultation 
with tribal leaders and individual land owners.
    The Land Buy-Back Program was slow to launch. It appears 
the Department has recently made large purchase offers acquired 
by thousands of acres of land, and built up an Indian education 
scholarship fund. It must be pure coincidence that these good 
things began to occur only after the Department learned about 
this hearing.
    Before I turn to the Ranking Member for her opening 
statement, I would like to comment on a remark made in the 
written statement by Mr. Roberts today. Mr. Roberts says the 
Cobell Settlement ``opened a new chapter''. This phrase, 
``opened a new chapter,'' has been a refrain by this 
administration with respect to tribal relations, as though no 
deal was possible, but for this President. In fact, the Cobell 
Settlement is merely a final version of legislation originally 
proposed in 2005 by House and Senate committee leaders 
following months of intense mediation they supervised. The only 
other major difference between the 2005 deal and the present 
one is this administration offers less to the Indians and more 
to the trial lawyers. And that really upsets me.
    The Settlement is not the opening of a new chapter, but the 
continuation of a story that has been written. There remains 
work to do, and I look forward to hearing from the tribal 
leaders on how to make the Buy-Back Program work to their 
benefit.
    And, with that, I will recognize the Ranking Member.
    [The prepared statement of Mr. Young follows:]
 Prepared Statement of Don Young, Chairman, Subcommittee on Indian and 
                         Alaska Native Affairs
    Before we start today's hearing, I want to say a word about Jimmy 
Newton, Chairman of the Southern Ute Indian Tribe. Chairman Newton 
passed away on Monday at the age of 37.
    Jimmy began his service to the Southern Ute Indian Tribe in 2003 
and in 2011, he became the youngest person to be elected to lead the 
tribe. Jimmy often traveled to Washington to advocate for his tribe as 
well as the Ute Mountain Utes and the Utes of Utah.
    Under his leadership, the Southern Ute Tribe continued in its role 
as the premier Indian tribal producer of natural gas and other 
resources and sought to assist other tribes improve their economies and 
the lives of their people. Men of Jimmy Newton's character and 
compassion are rare and we are lucky to have known him, even for the 
brief period he was with us.
    Today the subcommittee will review the Land Buy-Back Program for 
Tribal Nations. This is a $1.9 billion program through which the 
Secretary of the Interior will purchase on a willing-seller basis 
fractionated Indian lands and consolidate them in tribal ownership. 
Fractionation is a phenomenon that has plagued Indian Country for more 
than a century and it is a major reason why large tracts of Indian 
lands are unused.
    I voted for the Claims Resolution Act, but it was with 
reservations. Several aspects of the deal were flawed and neither the 
Administration nor the Plaintiffs agreed to fix them. While then-
Ranking Member Doc Hastings filed an amendment to improve the 
Settlement in accordance with resolutions adopted by major tribal 
organizations, House Majority Democrat Leaders refused to allow any 
changes. Nonetheless, Congress determined that with its flaws, the deal 
was better than more years of fruitless litigation.
    Unfortunately, the Settlement's flaws identified by tribal leaders 
and the major tribal associations in 2010 are causing real problems 
that we will hear about today.
    A purpose of today's hearing is to examine what's going right with 
the Buy-Back Program, what's going wrong with it, and what can Congress 
do to improve it in consultation with tribal leaders and individual 
Indian landowners.
    The land buyback program was slow to launch. It appears the 
Department has recently made large purchase offers, acquired thousands 
of acres of lands, and built up an Indian education scholarship fund. 
It must be pure coincidence that these good things began to occur only 
after the Department learned about this hearing.
    Before I turn to the Ranking Member for her opening statement, I 
must comment on a remark made in the written statement of Mr. Roberts, 
today's Administration witness.
    Mr. Roberts says the Cobell Settlement legislation [quote] ``opened 
a new chapter . . .'' [end quote].
    This phrase--``opened a new chapter''--has been a refrain of the 
Obama administration with respect to tribal relations. As though no 
deal was possible but for this President.
    In fact, the Cobell Settlement is merely the final version of 
legislation originally proposed in 2005 by House and Senate Committee 
Leaders following months of intense mediation they supervised.
    About the only major difference between the 2005 deal and the 
present one is that this administration offered less to the Indians and 
more to the trial lawyers.
    The Settlement is not the opening of a new chapter, but the 
continuation of a story still being written.
    There remains work to do and I look forward to hearing from tribal 
leaders on how to make the Buy-Back Program work to their benefit.

                                 ______
                                 

  STATEMENT OF HON. COLLEEN W. HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Chairman Young. And thank you to 
our witnesses. I know our tribal leaders have come a long way 
to be here, and it is good to see you.
    Mr. Chairman, for more than a century, the Federal 
Government has been the trustee of funds for individual 
Indians. The amounts in these funds are generated from leases 
on lands held in trust for purposes such as grazing, timber, 
agriculture, and energy development. Over the years, the United 
States has struggled to execute its fiduciary duties with 
proper care. Systemic and appalling breaches of fiduciary duty 
resulted in over a decade of class action litigation, 
culminating in the 2009 Cobell Settlement.
    Under the terms of the Settlement, the United States has 
agreed to pay a total of $3.4 billion to compensate trust 
beneficiaries, $1.5 billion of which was to pay directly to a 
class of approximately 500,000 individuals, and $1.9 billion of 
which was to be used to address the problem of land 
fractionation on Indian reservations around the country. The 
Settlement, which passed Congress in late 2010, became final in 
November of 2012, following the exhaustion of appeals through 
the U.S. Supreme Court.
    Since that time, the Department of the Interior has begun 
to implement the Settlement. The first round of payments to 
individuals was sent out in 2013, and I understand a second 
round of payments should be sent out later this year. I am 
hoping the Department can shed some light on the timeframe of 
those for today's hearing.
    The Department is now also working on consolidated 
fractionated land shares with the $1.9 billion dollars 
allocated for that purpose, and have begun making offers to 
tribes. The Senate Committee on Indian Affairs had a hearing 
specifically on implementation of the Land Buy-Back Program 
late last year, at which tribes expressed some concern over the 
Department's methods. I hope that the Department can inform us 
on how they are responding to those concerns today.
    Mr. Chairman, I applaud your leadership in holding this 
hearing, and I regret that, due to another commitment, I won't 
be able to stay for the entire duration. I would be remiss, 
however, if I didn't address a few issues before I left.
    First, I know that the Department has been working hard to 
implement the Settlement. But with regard to the Land Buy-Back 
Program, they only have 10 years to spend the $1.9 billion 
meant to consolidate fractionated land shares. I think it is 
wise for Congress to check on their progress now. And I think 
we should be open to doing whatever we need to to help them 
implement the Buy-Back Program in a way that will benefit 
tribes. And that was what its intended purpose was.
    Second, I want to express my concern with some of the 
rhetoric associated with the Cobell Settlement. Specifically, I 
take issue with the way Settlement funding was portrayed in the 
Majority's views and estimates letter to the President's Fiscal 
Year 2015 budget. Settlement funds are not appropriations, nor 
are they hand-outs. They are necessary compensation to resolve 
a legal dispute. Let us not forget that key point when we 
discuss the dollar amounts associated with the Cobell 
Settlement; it is what the government owes to make things 
right.
    Finally, the grave mismanagement of funds that precipitated 
the Cobell Settlement can never be allowed to happen again. The 
only way the United States laid claim to the entire continent 
was with the acquiescence of tribal governments that traded 
land for special rights and privileges in treaties and other 
legal documents. The United States took on the responsibility 
to act as the fiduciary to the various tribes of indigenous 
peoples. It did this willingly, and it got a much greater 
benefit than it has given back. I say all this because the only 
way such an outrageous breach of fiduciary duty could occur, as 
that precipitating the Cobell Settlement litigation, is for 
there to be an institutionalized culture that does not 
understand and take seriously this reality. Let the Cobell 
Settlement be a reminder.
    Moreover, Mr. Chairman, our Nation's history is littered 
with dark periods in which it was not living up to the duty it 
took on toward tribes. And each time it caused us to look back 
and have to repair the outcomes of its misguided policies. Yet, 
too often, I see us repeating the same mistakes. I see it in 
the Supreme Court's Carcieri decision and various trust cases, 
which construe that responsibility narrowly. I see it in a need 
for Native Hawaiian recognition and the lack of support from 
some of my colleagues for Native Hawaiian programs.
    None of these concepts should be issues for debate. The 
Secretary of the Interior was permitted to take land into trust 
for all federally recognized tribes because Assimilation Era 
policies wrongfully took away over 90 million acres of tribal 
lands. The United States serves as a trustee toward tribes 
because, in exchange, it was able to spread across the 
continent and become the world power that it is today. Programs 
aimed at benefiting Native Hawaiians were put in place because 
the United States was complicit in the overthrow of the Kingdom 
of Hawaii. It is time for us to stop making the same mistakes 
over and over again.
    [The prepared statement of Ms. Hanabusa follows:]
Prepared Statement of Colleen Hanabusa, Ranking Member, Subcommittee on 
                    Indian and Alaska Native Affairs
    Thank you, Chairman Young.
    And thank you, to our witnesses--I know our tribal leaders have 
come a long way to be here. It's good to see you.
    Mr. Chairman, for more than a century the Federal Government has 
been the trustee of funds for individual Indians. The amounts in these 
funds are generated from leases on lands held in trust for purposes 
such as grazing, timber, agriculture, and energy development. Over the 
years, the United States has struggled to execute its fiduciary duties 
with proper care. Systemic and appalling breaches of fiduciary duty 
resulted in over a decade of class action litigation culminating in the 
2009 Cobell Settlement.
    Under the terms of the settlement, the United States has agreed to 
pay a total of $3.4 billion to compensate trust beneficiaries--$1.5 
billion of which is to be paid directly to a class of approximately 
500,000 individuals and $1.9 billion of which is to be used to address 
the problem of land fractionation on Indian reservations around the 
country.
    The settlement, which passed Congress in late 2010, became final in 
November of 2012 following the exhaustion of appeals through the U.S. 
Supreme Court. Since that time, the Department of the Interior has 
begun to implement the settlement. The first round of payments to 
individuals was sent out in 2013, and I understand the second round of 
payments should be sent out later this year. I am hoping the Department 
can shed some light on the timeframe for those today.
    The Department is now also working on consolidating fractionated 
land shares with the $1.9 billion allocated for that purpose and have 
begun making offers to tribes. The Senate Committee on Indian Affairs 
held a hearing specifically on implementation of the Land Buy-Back 
Program late last year, at which tribes expressed some concerns over 
the Department's methods. I hope that the Department can inform us on 
how they are responding to those concerns today.
    Mr. Chairman, I applaud your leadership in holding this hearing and 
I regret that, due to another commitment, I won't be able to stay for 
its entire duration. I would be remiss however, if I didn't address a 
few issues before I leave. First, I know the Department has been 
working hard to implement the settlement, but with regard to the Land 
Buy-Back Program, they only have 10 years to spend the $1.9 billion 
meant to consolidate fractionated land shares. I think it wise for 
Congress to check on their progress now and I think we should be open 
to doing whatever we need to do to help them implement the Buy-Back 
Program in a way that will benefit tribes as it is intended.
    Second, I want to express my concern with some of the rhetoric 
associated with the Cobell Settlement. Specifically, I take issue with 
the way settlement funding was portrayed in the Majority's Views and 
Estimates letter on the President's Fiscal Year 2015 budget. Settlement 
funds are not appropriations nor are they handouts. They are necessary 
compensation to resolve a legal dispute. Let us not forget that key 
point when we discuss the dollar amounts associated with the Cobell 
Settlement.
    Finally, the grave mismanagement of funds that precipitated the 
Cobell Settlement can never be allowed to happen again. The only way 
the United States laid claim to an entire continent was with the 
acquiescence of tribal governments that traded land for special rights 
and privileges enshrined in treaties and other legal documents. The 
United States took on the responsibility to act as a fiduciary to the 
various tribes of indigenous peoples--it did this willingly and it got 
a much greater benefit than it has given back. I say all of this 
because the only way such an outrageous breach of fiduciary duty could 
occur--as that precipitating the Cobell litigation--is for there to be 
an institutionalized culture that does not understand and take 
seriously this reality. Let the Cobell Settlement be a reminder.
    Moreover, Mr. Chairman, our Nation's history is littered with dark 
periods in which it was not living up to the duty it took on toward 
tribes and each time, it caused us to look back and have to repair the 
outcomes of misguided policies. Yet, too often I see us repeating the 
same mistakes. I see it in the Supreme Court's Carcieri Decision and 
various trust cases which construe that responsibility narrowly. I see 
it in the need for Native Hawaiian Recognition and the lack of support 
from some of our colleagues for Native Hawaiian programs. None of these 
concepts should be issues for debate. The Secretary of the Interior was 
permitted to take land into trust for all federally recognized tribes 
because Assimilation Era policies wrongfully took away over 90 million 
acres of tribal lands. The United States serves as a trustee toward 
tribes because in exchange, it was able to spread across the continent 
and become a world power. Programs aimed at benefiting Native Hawaiians 
were put in place because the United States was complicit in the 
overthrow of the Kingdom of Hawaii.
    It is time for us to stop making the same mistakes over and over 
again.
    I yield back.

                                 ______
                                 

    Ms. Hanabusa. And I yield back, and I do want to say 
something. You saw me smile when he made a comment about trial 
lawyers. He does it on purpose, because I am a lawyer. It 
wasn't about anything else he said, it was because he was 
taking his usual ding at me.
    [Laughter.]
    Ms. Hanabusa. But I yield back. Thank you.
    Mr. Young. I thank the madam for her comments about this 
bill, and rightfully so. And also the last part of it, too. 
Thank you.
    At this time I would like to recognize the Chairman, Doc 
Hastings, for introduction of his witness.
    Mr. Hastings. Thank you very much, Mr. Chairman, and thank 
you for having this hearing today. It is my pleasure to 
introduce the second witness, at least on my list, Chairman 
Michael Finley of the Confederated Tribes of the Colville. 
Chairman Finley and I became acquainted when this issue was 
going through its process. And at that time, my district did 
not include part of the Colville Reservation. But I felt that 
the concerns that he was talking to me about that time 
warranted more of my involvement. And, as you mentioned in your 
opening statement, we did have an amendment to make some 
corrections.
    But, since redistricting now, part of the Colville 
Reservation is in my district. Although I know that the 
Chairman does not live in my district, I can claim at least 
part of him. But it is my pleasure to introduce to you and to 
the committee, Michael Finley, who is the Chairman of the 
Confederated Colvilles. Michael, good seeing you.
    Mr. Young. We thank you, Mr. Chairman. And, welcome, by the 
way.
    And now, Mr. Daines, would you introduce the other witness 
that comes from your district?
    Mr. Daines. Yes, thank you, Mr. Chairman. It is truly my 
honor to introduce two distinguished tribal leaders from 
Montana. The first is President Mark Azure of the Fort Belknap 
Tribal Council from the Fort Belknap Indian Community. As I 
have traveled around Montana, I have heard a lot from Indian 
Country related to this issue of the Cobell Settlement and 
fractionated lands. In fact, in Montana, we have seven 
federally recognized tribes, and have some of the most 
fractionated country in the United States. In fact at Fort 
Belknap, there are 5,352 tracks held in trust, and 3,024 
fractionated tracks with purchasable interest alone.
    In addition to President Azure, we are also pleased to have 
Councilman Grant Stafne, on the Tribal Executive Board of the 
Fort Peck Assiniboine & Sioux Tribes. Again, they are in the 
Fort Peck. We have 7,463 tracks held in trust, 4,005 are in 21 
fractionated tracks with purchasable interest.
    So, I am grateful to have these two leaders from Montana 
with us here today who are living right in the middle of what 
is going on with the Cobell Settlement. And, with all due 
respect to our distinguished Ranking Member, I do think the 
lawyers seem to be winning right now, and the folks on the 
other end aren't. So let's see if we can change that score.
    Mr. Young. I do think the gentleman, and I can't agree with 
you more, is right, the idea of this was to solve a problem. 
And I will tell you one thing, because there is a time limit, 
if we can't do anything else we ought to extend that time 
limit. Because my understanding, the settlement, if it isn't 
dispersed and making these lands consolidated, the money goes 
back to the Treasury. And it is a settlement, and it shouldn't 
do that.
    So, Mr. Chairman, I hope you listened to that very 
carefully.
    And I want to welcome the panel and thank you for being 
here.
    Mr. Roberts, you are the first one that is going to 
testify. And I apologize for you being at the end of the table. 
There is nothing significant about that, and I want you to know 
that, Mr. Roberts. You are in good shape. Go ahead.
    Mr. Roberts. I am in good company here with all these 
tribal leaders, Chairman.
    Mr. Young. Yes.
    Mr. Roberts. Thank you.
    Mr. Young. Yes.

 STATEMENT OF LAWRENCE S. ROBERTS, PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Roberts. Good afternoon, Chairman Young, Chairman 
Hastings, Ranking Member Hanabusa, other members of the 
committee. Thank you for inviting us here to testify today. My 
name is Larry Roberts. I am the Principal Deputy Assistant 
Secretary for Indian Affairs. I answer directly to Assistant 
Secretary Kevin Washburn. And I am a member of the Oneida 
Nation of Wisconsin.
    In 2010, Congress did enact this historic legislation. And, 
Chairman, I heard you take a quote out of the new chapter 
there. And I think what we really meant by, or what I meant by 
that new chapter language is that over the years that Cobell 
was being litigated it really caused a lot of consternation 
between tribes and the Department of the Interior, such the 
fact that Assistant Secretary Washburn says all the time if 
Cobell hadn't been settled, he would not have taken that job, 
because the discord between Interior and tribes was palpable.
    And so, by settling that litigation, it allowed us to move 
forward. And what we are focused on at the Department of the 
Interior here is the legislation that you all passed provides 
$1.9 billion to return lands to tribes. And all of the future 
income that is returned, all the future income of those lands 
that are returned to tribes, that future income is going to 
belong to tribes.
    And so, not only that, but by purchasing these fractionated 
interests, and we have heard about the large amounts there, 
tribal members who want to sell, it is a voluntary program. If 
they want to sell they are going to receive fair market value, 
and they are going to infuse money into their tribal 
communities.
    So, approximately 90 percent of all the purchasable 
fractional interests are located within 40 reservations. So 90 
percent of the interests are in 40 reservations that we are 
aiming to consolidate. The Pine Ridge Reservation alone 
accounts for 8 percent of all of those interests. In Montana 
and Wyoming, if you look at those reservations in both Montana 
and Wyoming, we have targeted over $406 million to purchase 
lands to return to tribes.
    Tribal leadership and involvement is critical, absolutely 
critical, to the success of the program. We, Kevin and I, and 
the Department of the Interior, know that the best proponents 
of this program are tribal leaders themselves. We most recently 
held an open solicitation to request expressions of interest 
from tribes wanting to participate in the program. Nearly 60 
tribes responded. And that 60-tribe response rate, it shows the 
support and interest in the goals of the program by tribal 
leadership.
    While the Department is willing to run a program without a 
formal tribal cooperative agreement, if a tribe prefers, the 
Department hopes to enter into cooperative agreements with as 
many tribes as possible to implement the Buy-Back Program. 
Again, we know that tribes are going to be most effective in 
explaining the benefits and talking about the program to their 
own communities.
    With regard to cooperative agreements being key, we have 
announced three cooperative agreements with tribes, and we 
anticipate announcing more soon. One goal, a goal of the Buy-
Back Program, is to spend as much of the fund as possible on 
acquiring land, and as little as possible on the administration 
of the Buy-Back Program. So I know tribes are concerned about 
the cooperative agreement process. Heard directly from them 
about it, the cooperative agreement process, being burdensome 
and overly complex, and we are going to look at ways to improve 
that process so that everyone's time and attention can focus on 
making the program as successful as possible.
    We have also heard from tribes that the fund should be 
invested to generate interest, and that the program should be 
eligible for 638 contracting. The legislation doesn't provide 
for the Department to either invest the fund or to enter into 
638 contracts.
    Over the last 4 months, the Buy-Back Program has returned 
the equivalent of over 40,000 acres, collectively, to the 
Oglala Sioux Tribe, the Makah Tribe, and the Rosebud Sioux 
Tribe. We have issued over 18,000 offers to individuals. And, 
in fact, we have returned over 40,000 acres specifically, just 
to the Oglala Sioux Nation, alone. And we have made payments of 
over $14 million over the last 4 months, over $14 million, to 
Pine Ridge allottees.
    So, it is support from the leadership of Chairman Greene 
from Makah, it is support from tribal leadership, like 
President Brewer from Oglala Sioux, that has been critical to 
this progress.
    So I think the level of interest expressed by tribes over 
the past year demonstrates the importance of the program, and 
our collective desire to make it be successful. I know all of 
these tribal leaders are here today because they want the 
program to be successful, and they want it to be implemented 
within Indian Country.
    Restoring tribal homelands is one of our highest 
priorities, and the interests are almost entirely within 
existing reservations.
    We appreciate the committee's interests in the Buy-Back 
Program, and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Roberts follows:
 Prepared Statement of Lawrence S. Roberts, Principal Deputy Assistant 
       Secretary, Indian Affairs, U.S. Department of the Interior
                            i. introduction
    Good afternoon, Chairman Young, Ranking Member Hanabusa, and 
members of the committee. Thank you for the opportunity to provide the 
Department of the Interior's (Department) statement at this oversight 
hearing on ``Implementing the Cobell Settlement.''
    In 2010, Congress enacted historic legislation to bring to a close 
the Cobell litigation. After decades of contentious litigation that 
affected virtually every aspect of the Department's relationship with 
tribes, the legislation opened a new chapter by providing, among other 
things, $1.9 billion to restore fractionated lands to tribal trust 
ownership. This $1.9 billion fund helps to reverse the impacts of the 
repudiated allotment and assimilation policy. That destructive policy 
resulted in the loss of approximately 90 million acres of tribal lands 
in less than 50 years. Although Congress repudiated that policy nearly 
80 years ago, its impact on nearly every aspect of tribal life--whether 
it be law enforcement, economic development or day-to-day governance--
continues to be felt every day in tribal communities.
    The magnitude of fractionation is enormous. There are over 2.9 
million trust or restricted fractional interests spread across more 
than 150 reservations that are owned by more than 243,000 individuals. 
Approximately 90 percent of the purchasable fractional interests are 
located within 40 reservations. The Pine Ridge Reservation alone 
accounts for over 8 percent of the purchasable fractional interests.
    The Cobell case came about in part because of a very serious 
problem created by Federal laws on allotment. The settlement was 
designed to address some of those longstanding problems. The Land Buy-
Back Program for Tribal Nations (Buy-Back Program) is one tool that 
will help alleviate the impacts of fractionation. A goal of the Buy-
Back Program is to spend as much of the Fund as possible on acquiring 
land and as little as possible on administration of the Buy-Back 
Program. Through purchases from willing sellers, the Buy-Back Program 
is transferring trust and restricted interests directly to tribes so 
that tribes can utilize the land. For example, over the last 4 months 
the Buy-Back Program has transferred the equivalent of over 30,000 
acres of land to the Oglala Sioux Tribe. In the short term, much of the 
money paid to obtain the interests will be spent in these tribal 
communities. In the long-term, transferring millions of acres of land 
to tribes will ultimately strengthen each tribal community and generate 
economic and generational benefits to those communities. Tribal 
acquisition of fractionated lands will ``unlock'' those lands, making 
them available to support economic development to benefit tribal 
members. This important work can succeed only with the collaborative 
involvement of tribal leaders and their communities. As sales occur, 
the Buy-Back Program will contribute part of the Fund (up to $60 
million) to the Cobell Education Scholarship Fund--an initial 
contribution to the scholarship fund, totaling nearly $580,000, has 
already begun.
               ii. implementation of the buy-back program
    The Cobell Settlement became final on November 24, 2012, following 
the exhaustion of appeals through the U.S. Supreme Court. Less than a 
month following final approval, the Department of the Interior 
established the Land Buy-Back Program for Tribal Nations (Buy-Back 
Program) and published an Initial Implementation Plan. The Department 
engaged in government-to-government consultation on the Plan--with 
consultations in Minneapolis (January 2013); Rapid City (February 
2013); Seattle (February 2013) and held numerous meetings with tribes 
and inter-tribal organizations. In recognition of the complexity and 
importance of the Buy-Back Program, it was established in the Office of 
the Deputy Secretary. The Department also established an Oversight 
Board, chaired by the Deputy Secretary. The Oversight Board includes 
the Solicitor, the Assistant Secretary-Indian Affairs, the Director of 
the Bureau of Indian Affairs, and the Special Trustee for American 
Indians.
    We are working diligently to implement the Buy-Back Program. Since 
November 24, 2012, we have:

    <bullet> Sent offers to nearly 19,000 landowners exceeding $150 
            million.
    <bullet> Transferred land to tribal trust ownership for three 
            tribes, totaling over 40,000 acres through purchases from 
            willing sellers.
    <bullet> Paid over $12 million dollars to Indian landowners across 
            the United States.
    <bullet> Entered into cooperative agreements, totaling over $1.4 
            million, with the Oglala Sioux Tribe, Confederated Salish 
            and Kootenai Tribe, and Northern Cheyenne Tribe, enabling 
            in part the involvement of over 20 full-time tribal 
            employees.
    <bullet> Hired 59 full-time employees and expended approximately $8 
            million of the overall implementation/administrative 
            portion of the fund:

      --Outreach $1.8 million;
      --Land Research $1.1 million;
      --Valuation $1.2 million;
      --Acquisition $2.5 million; and
      --Trust Commission $900 thousand.

      Some of these expenditures included one-time, up-front costs, 
            such as the Trust Commission, mapping, and equipment.

    <bullet> Held an open solicitation (from November 2013-March 2014) 
            to encourage tribes from the most fractionated locations to 
            express interest in developing cooperative agreements based 
            on tribal priorities.
    <bullet> Communicated directly with at least 50 tribes (28 with 
            jurisdiction over the most fractionated reservations), 
            including meetings with several on or near their 
            reservations.
    <bullet> Obtained independent, outside review of the Program's 
            appraisal methodology by The Appraisal Foundation (TAF).
    <bullet> Launched a substantive website, www.doi.gov/
            buybackprogram, to provide information about the Buy-Back 
            Program, especially for tribes and individual landowners.
    <bullet> Expanded our Trust Beneficiary Call Center to answer 
            questions and register ``interested sellers.''
    <bullet> Established policies such as flexible purchase ceilings 
            for fractionated reservations to ensure that as many 
            reservations as possible can benefit from the Buy-Back 
            Program.
    <bullet> Set a base payment amount of $75 for submitting an 
            accepted offer and a base payment of $7.50 per acre for 
            subsurface or mineral ownership interests with nominal or 
            no value.

    Tribal leadership and involvement are crucial to the success of the 
Buy-Back Program. While the Department is willing to run the program 
without a formal tribal cooperative agreement if a tribe prefers, the 
Department hopes to enter cooperative agreements with many tribes to 
implement the Buy-Back Program through a Federal-tribal partnership, 
which will promote tribal ownership of program, minimize administrative 
costs, and improve overall effectiveness and efficiency.
    Accordingly, we held an open solicitation to request expressions of 
interest from the tribes having the most fractionated reservations. As 
a result, nearly 60 tribes have submitted a cooperative agreement 
application or letter of interest to the Program. The open solicitation 
facilitates increased tribal input in the timing and sequencing of 
Program implementation. The Department will rely on this tribal 
interest along with other factors, such as degree of ownership overlap, 
geographic diversity, and appraisal complexity, to guide implementation 
of the Buy-Back Program. The Department will implement the Buy-Back 
Program in a flexible manner and continue to update its approach to 
reflect lessons-learned, best practices, and tribal involvement.
                          iii. lessons learned
    The Buy-Back Program is an effort of significant scope and 
complexity, which has great importance to Indian Country. As we 
continue to implement the Buy-Back Program, we have incorporated 
lessons learned, best practices, and tribal feedback to enhance the 
overall effectiveness of the Program's implementation strategy. We have 
heard from tribes on a number of issues, including the cooperative 
agreement process, scheduling, and reporting on both the expenditure of 
administrative costs and the acceptance of offers on reservations.
    Many features of the Buy-Back Program design have come as a direct 
result of tribal consultation, such as the need for a minimum base 
payment to sellers and provision of indirect costs.
    Tribes are concerned that the cooperative agreement process is 
burdensome and overly complex. We have developed instructional 
materials, hosted a webinar for tribal leaders, and provided one-on-one 
technical support to tribes. In addition, we revised the cooperative 
agreement forms, and we will continue to look at ways to improve the 
process so that everyone's time and attention can focus on making the 
Program as successful as possible.
    The Buy-Back Program also responded to lessons learned regarding 
scheduling. We heard from Indian Country that all fractionated 
locations should have the opportunity to participate, not simply the 
locations with 90 percent of fractionated lands. As a result, the 
Program has pursued opportunities to include less fractionated 
locations in early implementation efforts, which will help us develop a 
comprehensive strategy for the purchase of fractional interests at as 
many less fractionated locations as possible. We also recognize that 
the Department cannot develop an implementation schedule without input 
from tribes. The Program's open solicitation garnered several 
cooperative agreement applications and letters of interest. We are 
currently evaluating the applications and determining which locations 
can be completed most efficiently.
    Indian Country has also called for information on expenditures and 
the acceptance of offers on reservations. The Department is committed 
to reporting this information on a regular basis. As described above, 
the Program has spent approximately $8 million dollars for 
implementation. In December 2013, the Program made approximately 3,000 
offers to individuals that own interests at the Pine Ridge, Rosebud, 
and Makah reservations. The offers totaled approximately $50 million. 
Approximately 29 percent of the initial offers set out have been 
accepted, resulting in payments to landowners totaling nearly $11 
million and the consolidation and restoration of over 30,000 acres to 
tribes. In March 2014, the Program sent additional purchase offers to 
nearly 16,000 individual landowners in the Pine Ridge Reservation for a 
total amount that exceeds $100 million; approximately 10,000 more acres 
have already been restored to the Oglala Sioux Tribe based on early 
results of these additional offers. In the near future, the Buy-Back 
Program will mail additional offers to individuals that own interests 
at the Rosebud and Makah reservations.
    In addition to the areas discussed above, Interior has implemented 
changes in response to lessons learned at these first few locations. 
For example, we have expanded our national outreach given that 
landowners on the Pine Ridge Reservation resided in all 50 States as 
well as Canada, Germany, England, Italy, Qatar, Taiwan and the 
Philippines. We have updated our deed application to address feedback 
from landowners, and improved information on our website based on 
questions from the field. We are constantly seeking ways to incorporate 
feedback and improve the Buy-Back Program.
    Finally, we note that some tribal leaders have voiced concern that 
the $1.9 billion Land Consolidation Fund (Fund) is not currently being 
invested. Unfortunately, the Claims Resolution Act of 2010 does not 
provide the Department with authority to invest the Fund to generate 
interest.
                             iv. conclusion
    The level of interest expressed by tribes over the past year 
demonstrates the importance of the Buy-Back Program and our collective 
desire for it to be successful. Transferring millions of acres directly 
to tribes will provide countless opportunities for this and future 
generations. Restoring tribal homelands is one of our highest 
priorities and these interests are almost entirely within existing 
Indian reservations. We appreciate the committee's interest in the Buy-
Back Program and look forward to answering any questions.

                                 ______
                                 

 Questions Submitted for the Record to Lawrence S. Roberts, Principal 
  Deputy Assistant Secretary, Indian Affairs, U.S. Department of the 
                                Interior
               Questions Submitted by Chairman Don Young
    Question 1. In March the Buy-Back Program made more than $100 
million in offers to owners of fractional interests at the Pine Ridge 
Reservation and these individuals have 45 days to accept or reject the 
offers. What is the acceptance rate so far for these offers?

    Answer. As of September 29, 2014, the Department has an approximate 
acceptance rate of 48 percent based on the three sets of offers to 
landowners with interests at the Pine Ridge Reservation. The Program's 
acceptance rate on all of the offers that have been sent to landowners 
with interest is 36 percent.

    Question 2. In the hearing, you heard from Chairman Finley that 4 
years ago the Administration opposed changing the Cobell Settlement 
Agreement to allow tribes to contract the Buy-Back program under the 
Indian Self-Determination Act. Is this still the Administration's 
position?

    Answer. The Department strongly supports the spirit of self-
determination and self-governance. Although the Cobell Settlement 
Agreement (Settlement) and the Claims Resolution Act do not allow the 
use of Indian Self-Determination and Education Assistance Act (ISDEAA) 
agreements to operate Buy-Back Program activities, the Buy-Back Program 
gains the benefit of tribal participation by entering into cooperative 
agreements and more informal arrangements with tribes to undertake land 
consolidation tasks.
    The Department and the Administration are strong supporters of the 
ISDEAA. However, any proposed changes to the Buy-Back Program must take 
into account the progress we have made in the Program and the potential 
delays and additional implementation costs that a new process may 
cause.
    In comparison to other Federal programs, the Land Buy-Back 
Program's limited, 10-year timeframe and its 15 percent cap on 
implementation costs (for outreach, land research, valuation, and 
acquisition activities) are unique. The parameters in the Settlement 
necessitate relatively intense, short-term activity at each location to 
maximize the number of the 150 locations and the some 245,000 
individual land owners that may participate in the Program. If the 
1SDEAA were extended to the Buy Back Program, the 10-year deadline 
established by the Settlement would likely need to be extended to 
provide the Program, and tribes, the additional time necessary:

    <bullet> to consult with tribes to determine an appropriate method 
            for allocating implementation costs under ISDEAA 
            agreements;
    <bullet> to provide training and conduct security clearances for 
            tribal staff at each location that seeks to accept 
            responsibility for the Program's acquisition phase through 
            an ISDEAA agreement;
    <bullet> for tribes that choose to use a site-specific appraisal 
            approach rather than a mass appraisal approach; and
    <bullet> for the Buy-Back Program to transition to any amendment to 
            ensure that it has proper staff and intra-agency agreements 
            in place to implement the law. Even if every tribe chose to 
            utilize ISDEAA agreements, the Program would need to 
            maintain staff to provide final approval of appraisals and 
            land transfers.

    Moreover, acquisition and payment processing time may vary from 
tribe to tribe under ISDEAA agreements. Currently, the Department is 
able to print and mail 2,000 offers per day and pay owners promptly 
that sell their fractional interests (since December 2013, the Program 
has paid owners an average total of $667,000 per day). The process 
integrates land title and trust fund systems of record, which enables 
landowners to receive their offer packets shortly after appraisal 
completion. Payments for accepted offers are deposited directly into 
their Individual Indian Money accounts typically within an average of 5 
business days of receiving a complete, accepted offer package.
    In addition, and as indicated above, additional funding could be 
necessary, should the ISDEAA be extended to the Buy Back Program, for:

    <bullet> tribal and Interior administrative costs associated with 
            any extension of the current 10 year implementation 
            deadline;
    <bullet> tribes to prepare proposals and negotiate with Program 
            representatives, including resources to provide technical 
            assistance to tribes for the development of agreements;
    <bullet> implementation of changes to processes that have already 
            been established;
    <bullet> appraisal work, which may increase (the Buy-Back Program 
            uses primarily mass appraisal methods whereas most tribes 
            in ISDEAA programs use site-specific appraisals); and
    <bullet> full contract support costs, which would need to be 
            provided under ISDEAA agreements (the Buy-Back Program 
            currently provides up to 15 percent in indirect costs 
            through cooperative agreements to minimize implementation 
            expenses consistent with the Settlement).

    Existing Buy-Back Program costs and functions for tribes not 
interested in utilizing ISDEAA agreements would remain the same; 
consequently, the Buy-Back Program would continue to need funds to 
maintain capacity for the Department to implement the program.
    If the ISDEAA was extended to the Buy-Back Program without 
additional funding, it is likely that the $285 million administrative 
cost cap would be reached well before the fund available to purchase 
land is exhausted. Thus, any increase in costs associated with an 
ISDEAA extension would need to be authorized and appropriated so that 
such costs do not diminish the funds available to return lands to 
tribes.

    Question 3. The committee has received testimony that CGI Federal, 
the same Federal contractor that developed the healthcare.gov Web site, 
is also involved in the Buy-Back program and may even have an ownership 
interest in the TAAMS system. What involvement does CGI Federal have 
with the program?

    Answer. CGI Technologies and Solutions, Inc. is a subsidiary of CGI 
Federal. CGI Federal was the lead contractor on the Web site for the 
Affordable Care Act. The Bureau of Indian Affairs (BIA) awarded CGI 
Technologies and Solutions, Inc. the contract for ADP Systems 
Development Services and Automated Information System Design and 
Integration Services. The result of that contract is the Trust Asset 
Accounting Management System (TAAMS). In 2013, BIA requested that a new 
TAAMS module be developed specifically to manage Land Buy-Back land 
purchases. BIA also approved a Task Order for CGI to manage the Print/
Mail/Scan/Review portion of the acquisition process.

    Question 4. The committee is aware that some tribes have expressed 
a desire for the Buy-Back funds to be able to be invested or otherwise 
earn value to maximize the number of interests that can be purchased. 
Does the Department agree with this concept? If so, can it provide the 
committee with a proposal on how this could be accomplished?

    Answer. The Department has no authority to invest the Trust Land 
Consolidation Fund (Fund). The Cobell Settlement sets forth the precise 
purpose and use of the Fund. It states, in pertinent part, as follows:
    ``The Trust Land Consolidation Fund shall be used solely for the 
purposes of (1) Acquiring fractional interests in trust or restricted 
lands; (2) Implementing the Land Consolidation Program; and (3) Paying 
the costs related to the work of the Secretarial Commission on Trust 
Reform, including costs of consultants to the Commission and audits 
recommended by the Commission. An amount up to a total of no more than 
fifteen percent (15 percent) of the Trust Land Consolidation Fund will 
be used for purposes 2 and 3.'' (Cobell Settlement Agreement at 
Sec. F(2).)
    Under the terms of the Settlement, any unexpended funds revert to 
the Department of the Treasury if not expended within 10 years. The 
Department has no authority to utilize, disperse, retain, or invest any 
portion of the Fund in a manner inconsistent with the mandates of the 
Settlement, as ratified by the U.S. Congress through the Claims 
Resolution Act of 2010.
    If legislation were enacted either authorizing investment of or 
providing for the payment of interest on the Fund, such authority 
should be granted to either the Department or to the U.S. Treasury. All 
interest income earned from investment of the Fund should inure to 
benefit of the Fund.

    Question 5. What amendments can be made to the Cobell Settlement 
Agreement or other applicable Federal law to improve the success of the 
Buy-Back Program for Indian tribes?

    Answer. We are pleased with the success of the Program thus far. 
Thus far, we have successfully concluded transactions worth almost $146 
million, restoring the equivalent of nearly 280,000 acres of land to 
tribal governments.
    From the lessons we have learned thus far there is one area for 
improvement. The Settlement established the $1.9 billion Trust Land 
Consolidation Fund for the purchase of fractional interests. Despite 
the large size of the Fund, it is unlikely to contain sufficient 
capital to purchase all fractional interests across Indian country.
    In terms of amendments to the Cobell Settlement Agreement or other 
applicable Federal law, Congress may want to consider amendments that 
would clarify a State's ability to share appraisal information with the 
Buy Back Program. We have observed this to be a hurdle in some States 
and clarifying language could address such situations.
         Questions Submitted by Ranking Member Colleen Hanabusa
    Question 1. The Claims Resolution Act of 2010 states that the 
Secretary has 10 years from the date of the final settlement to spend 
the $1.9 billion of the Trust Land Consolidation Fund. By my 
calculation, we are already about 4 years in and the Department has 
just recently sent purchase offers to three tribes. At this rate, do 
you expect the 10-year window to be long enough to enable you to spend 
all of the $1.9 billion?

    Answer. The Department is committed to implementing the Program in 
the most efficient and cost-effective manner. The Settlement was 
confirmed by the Claims Resolution Act of 2010 and approved with 
finality on November 24, 2012, after appeals were exhausted through the 
U.S. Supreme Court. The 10-year period occurs from November 24, 2012 
(the date of Final Approval of the Settlement) to November 24, 2022.
    During the first year of the Program, the Department focused on 
joint planning with tribes, cooperative agreements, staffing, and 
designing and laying out the strategy, methods, and key systems for 
this 10-year Program. Tribal involvement, transparency, flexibility, 
timely decisionmaking, and ongoing communication throughout the life of 
the Program are critical to its success.
    In less than 1 year we have successfully concluded transactions 
worth almost $138 million, restoring the equivalent of nearly 277,000 
acres of land to tribal governments (these transactions relate to eight 
different locations). Deputy Secretary of the Interior Michael Connor 
announced a schedule through 2015 for the continued implementation of 
the Program that identified locations representing more than half of 
all the fractional interests and unique owners across Indian Country. 
The Department is planning to announce additional locations before the 
end of the calendar year.
    One approach that the Department is using to expend the Fund in a 
timely manner is the use of mass appraisal techniques. The breadth, 
scale, limited funding, and bounded life span of the Program 
necessitate the use of mass appraisal methods where appropriate. The 
Department intends to implement the Program fairly and equitably, 
moving quickly to reach as much of Indian Country as possible during 
this 10-year period. Mass appraisal is an efficient way to quickly 
determine fair market value for a significant number of fractionated 
tracts. By using the mass appraisal method where applicable, the 
Program can maximize the number of owners that can receive payments for 
the interests they decide to sell, and therefore the interests that 
will be immediately restored to the tribes.

    Question 2. When can members of the Trust Administration Class 
expect their payments? Why have there been delays in issuing them?

    Answer. The Cobell v. Salazar lawsuit ended in a settlement 
agreement approved by Congress and by the U.S. District Court for the 
District of Columbia, where the case was filed.
    Under the settlement agreement, the Federal Government paid 
approximately $1.5 billion into a settlement fund in a private bank. 
The Plaintiffs administer that account under the supervision of the 
district court and have responsibility for distributing the funds. The 
government does not control the distribution of the settlement funds.
    Pursuant to the Cobell Settlement Agreement as approved by Congress 
and signed by the President on December 8, 2010 (Settlement Agreement), 
specific notice and process provisions must be met before payments can 
be made to the Trust Administration Class (TAC), also identified as 
Stage 2 payments. Plaintiffs are required to identify all the TAC 
members because that number will affect the calculation of the 
settlement payments. See Settlement Agreement, at sec. E.4.a (``No 
Stage 2 [TAC] payments shall be made until all Stage 2 Class Members 
have been identified in accordance with this Agreement and their 
respective pro rata interests have been calculated.'').
    Plaintiffs hired (and the court approved) the Claims Administrator, 
Garden City Group (GCG), to make the distribution. In late 2012, the 
district court approved the first round of settlement payments to the 
Historical Accounting Class (HAC), also identified as Stage 1 payments. 
In the Stage 1 payments, each class member was paid $1,000. On January 
23, 2014, the district court granted a motion by Plaintiffs to add 
almost 13,000 members to the HAC.
    Plaintiffs are now preparing to make the Stage 2 settlement 
payments to members of the TAC. This part of the settlement calculation 
is more complicated because the dollar amount paid to class members 
will vary according to how much money was deposited in his or her 
Individual Indian Money (IIM) account over time.
    Trust Administration Class members who had no IIM account, or who 
had no money deposited to an IIM account, will receive a minimum 
payment. That minimum amount is based on: (1) the total number of class 
members; and (2) the amount of money left in the settlement fund after 
paying the Stage 1 settlement payments (plus the expenses of 
administering the settlement). Plaintiffs cannot perform these 
calculations for Stage 2 until they can identify the final number of 
class members and reasonably estimate the amount of money available in 
the settlement account after expenses.
    Pursuant to the Settlement Agreement, a Special Master was 
appointed to make determinations regarding the eligibility of 
individuals to participate as members of the TAC. Before the TAC can be 
finalized, the Special Master must resolve the appeals that ``self-
identifying'' putative TAC members made after they were denied 
inclusion into the class by GCG. The Special Master is still 
considering those appeals, and we have no timeframe for when the 
appeals will be resolved. Once the universe of TAC members has been 
identified, the calculation of TAC settlement payments can be 
completed.

    Question 3. A private firm, the Garden City Group, is arranging to 
send out payments to the Trust Administration Class, but ultimately, 
executing this duty is a Federal responsibility. Who in the Department 
is responsible for overseeing the work of the Garden City Group and how 
are they addressing class member concerns that expected payment dates 
keep getting pushed back?

    Answer. Plaintiffs, not the Federal Government, have the 
responsibility to disburse payments to the members of the Cobell 
classes pursuant to the Settlement Agreement and the legislation 
authorizing its implementation. Payments to individual class members 
are not considered trust unless and until they are transferred to the 
Department pursuant to the settlement provisions noted below. They are 
aided in that task by the appointed Claims Administrator, Garden City 
Group (GCG). The government's limited involvement includes supplying 
the ``best and most current'' contact information for each beneficiary 
class member and indicating if the class member is a minor, non-compos 
mentis, an individual under legal disability, in need of assistance, or 
whose whereabouts is unknown, as well as receiving and holding proceeds 
for individuals with IIM accounts who are identified in DOI's data as 
``whereabouts unknown.'' See, e.g., Settlement Agreement at E.1.g 
(``Defendants' Limited Role. Except as specifically provided in this 
Agreement, Defendants shall have no role in, nor be held responsible or 
liable in any way for, the Accounting/Trust Administration Fund, the 
holding or investment of the monies in the Qualifying Bank or the 
distribution of such monies.'').
    With the settlement funds in a private bank, the settlement 
distribution is entirely a private task, with the government merely 
providing data (i.e., contact information, whereabouts unknown 
information, etc.) to support Plaintiffs' (and GCG's) effort. Although 
the Federal Government is not in charge of the Cobell settlement 
distributions, the Department of the Interior does have program 
responsibility for another part of the Cobell settlement: use of the 
$1.9 billion Congress appropriated to buy back highly sub-divided 
allotments on a voluntary basis from individual land owners. In 
contrast to the monetary payments to class members, this ``Land Buy 
Back'' portion is the responsibility of the Department of the Interior.
    The Department of the Interior is not charged (by the Settlement 
Agreement or otherwise) with overseeing the work of the Claims 
Administrator GCG. With that in mind, individuals within the Department 
(specifically, officials within the Office of the Special Trustee and 
Office of the Solicitor) are working collaboratively with GCG for the 
delivery of the contact information and to help resolve any questions 
or concerns that may arise about the data. Supervision and oversight of 
the Claims Administrator, however, remains with the district court.

    Question 4. Does the Department have enough personnel to ensure the 
timely implementation of the Land Buy-Back Program?

    Answer. The Program currently employs 56 full-time employees 
(Program Office 10, Bureau of Indian Affairs 14, Office of Minerals 
Evaluation 13, and Office of Appraisal Services 19). In addition, 
tribes may hire approximately up to 29 tribal staff through funding 
available under cooperative agreements. The Program is also utilizing 
contractors, particularly for acquisition (print/mail/scan) and 
appraisal services.
    Tribes will also continue to have an active role in implementing 
the Program, particularly with respect to outreach activities. It is 
critical that the Buy-Back Program and tribal leaders work together to 
ensure that landowners are made aware of the opportunity to sell their 
interests for the benefit of both the landowner and tribal communities. 
The Department hopes to enter into cooperative agreements with as many 
interested tribes as possible to take advantage of tribes' ability to 
minimize administrative costs and to improve the overall effectiveness 
and efficiency of the Buy-Back Program. The Department currently has 
formal or informal agreements in place with 12 tribes: Coeur d'Alene 
Tribe of the Coeur d'Alene Reservation, Confederated Salish and 
Kootenai Tribes of the Flathead Reservation, Confederated Tribes of the 
Umatilla Indian Reservation, Fort Belknap Indian Community of the Fort 
Belknap Reservation of Montana, Fort Peck Assiniboine and Sioux Tribes, 
Gila River Indian Community of the Gila River Indian Reservation, Makah 
Indian Tribe of the Makah Indian Reservation, Northern Cheyenne Tribe 
of the Northern Cheyenne Indian Reservation, Oglala Sioux Tribe of the 
Pine Ridge Reservation, Sisseton-Wahpeton Oyate of the Lake Traverse 
Reservation, Standing Rock Sioux Tribe of North and South Dakota, and 
the Crow Tribe.

    Question 5. I have heard that the Department is focusing on only 40 
tribes to conduct the Land Buy-Back Program even though there are 150 
tribes with fractionated land shares. Are those claims accurate? If so, 
why are you focusing on only 40 tribes?

    Answer. It is not accurate that we are only focusing on the top 40 
tribes. It is true that approximately 90 percent of the purchasable 
fractional interests are located within 40 of the 150 locations with 
purchasable fractional interests. As a result, as a practical matter, 
the Department must focus a great deal of its initial efforts among 
these highly fractionated locations. While the Program will be 
implemented at locations that hold the highest amount of purchasable 
fractional interests, the Department will also pursue implementation 
activities with tribes at locations that represent the approximately 
110 locations with the remaining 10 percent of the fractionated land. 
Efforts are already underway at several less fractionated locations 
including the Makah, Coeur d'Alene, Squaxin Island, Swinomish, Prairie 
Band, Quapaw, and Lummi Reservations.

    Question 6. Many tribes already implement their own fractionated 
shares buyback programs with their own funds. These tribes are eligible 
for the Cobell Settlement's Land Buy-Back program, but they have had to 
wait in a long line to access settlement funds. Meanwhile, they have 
been continuing to implement their own programs with their own funds. 
Is the Department open to using the Trust Land Consolidation Fund for 
reimbursing tribes for fractionated land purchases from November 2012, 
the time the Cobell Settlement was officially final, to the time 
Interior is able to make them an offer?

    Answer. The Department is open to exploring every possible avenue 
to efficient, timely, and cost effective purchases of fractionated 
interests consistent with the requirements of the Settlement, the 
Indian Land Consolidation Act, the Claims Resolution Act of 2010, and 
all other applicable laws.
    We have also made tribes not immediately slated for implementation 
in the next year aware of the opportunities and tasks that they can 
undergo right now to help prepare for the smooth transition when the 
Program moves to their location.

    Question 7. Some tribes have expressed concerns with the 
Department's one-size-fits-all approach to implementing the Land Buy-
Back Program. How do you respond to that criticism and can you 
understand the need for the Department to take a more tailored 
approach?

    Answer. The Department recognizes the uniqueness of each location 
and tribal government, will continue to consult with tribes 
individually, and will continue to evaluate tribal proposals 
individually before initiating Buy-Back Program activities on the 
respective reservations. The Program's Tribal Relations Advisors are 
responsible for working closely with each tribe to understand its 
concerns and unique goals. Each cooperative agreement between the 
Program and individual tribes is unique in time, scope, and 
responsibilities based on the expressed interests of the tribe.
    Cooperative agreements present an opportunity for tribes and the 
Program to move forward together by providing funding for tribes to 
perform certain tasks, such as outreach to the landowners. While much 
can be accomplished through these agreements, cooperative agreement 
funding should be viewed as a short-term resource to achieve the much 
larger and more valuable goal of land consolidation. Accordingly, the 
Program must award agreements with an eye toward efficiency without 
engaging in protracted cooperative agreement negotiations that detract 
from the objective of providing individual landowners with offers of 
fair market value for their fractionated interests in trust or 
restricted land.
    A Scope of Work Checklist has been developed in response to tribal 
feedback requesting details about the work involved and templates to 
streamline the process for entering into agreements. While this 
checklist outlines baseline parameters and tasks, it does not preclude 
tribes from proposing other pertinent tasks or activities given the 
unique circumstances of their locations.
    The Program has worked diligently to facilitate and expand tribal 
involvement in land consolidation efforts, in part by hiring staff 
dedicated to those goals. It also strives for a cooperative agreement 
process that is as streamlined as possible, while still meeting all 
Federal and Departmental regulations and requirements associated with 
the awarding of any financial assistance. These requirements, such as 
completing the mandatory SF-424 Application for Federal Financial 
Assistance forms and complying with the applicable procurement 
regulations and cost principles, apply to all financial assistance 
awards, including grants, unless statutorily exempted.

    Question 8. Chairman Berrey claims that the Department refused to 
work with his tribe to purchase fractionated shares in a Superfund 
site. Is this true? If so, why is this? Shouldn't the tribe be able to 
use Settlement funds to consolidate shares on any of its lands it sees 
fit?

    Answer. The Department recently announced a list of locations where 
it would implement the program and the Quapaw Tribe is included on that 
list. The Department has in fact already sent offers to Quapaw that are 
outside the Superfund site and is working to finalize those purchases. 
Although fractionated shares within the Superfund site present complex 
legal and practical challenges, the Department is working with the 
Department of Justice on whether and how the Department can purchase 
such parcels. The Department continues to keep the tribe apprised of 
its efforts.

    Question 9. Our tribal witnesses today universally support Indian 
Self-Determination Act contracting over other cooperative agreements. 
If Congress worked on a bill to permit tribes to enter into ISDEAA 
contracts to administer the Buy-Back Program, would the Department 
support it?

    Answer. Please see page 1, answer 2 in response to the Chairman's 
similar question.
               Questions Submitted by Rep. Rauul Grijalva
    Question 1. I understand there are five tribes that have 
successfully entered into Cooperative Agreements with the Department 
already, can you share with us how has the Department concluded the 
Agreements with those five tribes?

    Answer. The Department has entered into agreements with 10 tribes 
(Coeur d'Alene Tribe of the Coeur d'Alene Reservation, Confederated 
Salish and Kootenai Tribes of the Flathead Reservation, Confederated 
Tribes of the Umatilla Indian Reservation, Fort Belknap Indian 
Community of the Fort Belknap Reservation of Montana, Fort Peck 
Assiniboine and Sioux Tribes, Northern Cheyenne Tribe of the Northern 
Cheyenne Indian Reservation, Oglala Sioux Tribe of the Pine Ridge 
Reservation, Sisseton-Wahpeton Oyate of the Lake Traverse Reservation, 
Standing Rock Sioux Tribe of North and South Dakota, and Crow Tribe). 
The Department also has a Memorandum of Agreement with Gila River 
Indian Community of the Gila River Indian Reservation, and an informal 
working agreement with Makah Indian Tribe of the Makah Indian 
Reservation. The Department expects to finalize additional agreements 
in the near future.
    In order to negotiate an agreement, the Program's Tribal Relations 
Advisors, in coordination with field staff, work closely with tribal 
leadership to define a scope of work that will enable the tribe to 
accomplish its goals for the Program. The time it can take to reach 
each agreement is dependent on each tribe's procedures, which can vary 
dramatically in terms of needed approvals. The tribal point of contact 
and the Tribal Relations Advisors are in regular contact via email and 
in-person meetings throughout the process.

    Question 2. Let me turn your attention away from the land Buy-Back 
Program and to the initial aim of the Cobell Settlement, can you give 
me the latest update and progress on the Historical Trust 
Administration established to compensate Individual Indian Money (IIM) 
Account Holders?

    Answer. The Cobell v. Salazar lawsuit ended in a settlement 
agreement approved by Congress and by the U.S. District Court for the 
District of Columbia, where the case was filed. Under the settlement 
agreement, the Federal Government paid approximately $1.5 billion into 
a settlement fund in a private bank. The Plaintiffs administer that 
account under the supervision of the district court and have 
responsibility for distributing the funds. The government does not 
control the distribution of the settlement funds.
    Pursuant to the Cobell Settlement Agreement as approved by Congress 
and signed by the President on December 8, 2010 (Settlement Agreement), 
specific notice and process provisions must be met before payments can 
be made to the Trust Administration Class (TAC), also identified as 
Stage 2 payments. Plaintiffs are required to identify all the TAC 
members because that number will affect the calculation of the 
settlement payments. See Settlement Agreement, at sec. E.4.a (``No 
Stage 2 [TAC] payments shall be made until all Stage 2 Class Members 
have been identified in accordance with this Agreement and their 
respective pro rata interests have been calculated.'').
    Plaintiffs hired (and the court approved) the Claims Administrator, 
Garden City Group (GCG), to make the distribution. In late 2012, the 
district court approved the first round of settlement payments to the 
Historical Accounting Class (HAC), also identified as Stage 1 payments. 
In the Stage 1 payments, each class member was paid $1,000. On January 
23, 2014, the district court granted a motion by Plaintiffs to add 
almost 13,000 members to the HAC.
    Plaintiffs are now preparing to make the Stage 2 settlement 
payments to members of the TAC. This part of the settlement calculation 
is more complicated because the dollar amount paid to class members 
will vary according to how much money was deposited in his or her 
Individual Indian Money (IIM) account over time.
    Trust Administration Class members who had no IIM account, or who 
had no money deposited to an IIM account, will receive a minimum 
payment. That minimum amount is based on: (1) the total number of class 
members; and (2) the amount of money left in the settlement fund after 
paying the Stage 1 settlement payments (plus the expenses of 
administering the settlement). Plaintiffs cannot perform these 
calculations for Stage 2 until they can identify the final number of 
class members and reasonably estimate the amount of money available in 
the settlement account after expenses.
    Pursuant to the Settlement Agreement, a Special Master was 
appointed to make determinations regarding the eligibility of 
individuals to participate as members of the TAC. Before the TAC can be 
finalized, the Special Master must resolve the appeals that ``self-
identifying'' putative TAC members made after they were denied 
inclusion into the class by GCG. The Special Master is still 
considering those appeals, and we have no timeframe for when the 
appeals will be resolved. Once the universe of TAC members has been 
identified, the calculation of TAC settlement payments can be 
completed.

    Question 3. I am also interested in the investment on the education 
of Indian Youth side of the Cobell Settlement. I believe that $60 
million of $1.9 billion dollars Trust Land Consolidation was 
contributed to Indian Education Scholarship (aiming at improving access 
to higher education for Indian youth), can you give us an update and 
progress of this Scholarship Program? And how many Indian youth have 
benefited from this fund already?

    Answer. In accordance with the terms of the Settlement the 
Department of the Interior will contribute up to $60 million to the 
Scholarship Fund. Contributions to the Scholarship Fund are based upon 
the formula outlined in the Settlement setting aside a certain amount 
of funding based on the value of the fractionated interest sold. As the 
offer sets for the individual reservations receiving offers are 
completed, scholarship funds are transferred to the Indian Education 
Scholarship Holding Fund (Holding Fund). At the end of each quarter, 
the funds are transferred from the Holding Fund to the American Indian 
College Fund. The first payment was made at the end of March 2014 and 
the second at the end of June 2014. To date, the Department has 
transferred more than $3.4 million to the American Indian College Fund. 
Another transfer of approximately $1 million will occur in the near 
future.
    The American Indian College Fund, headquartered in Denver, 
Colorado, administers the Scholarship Fund and provides students with 
the resources to succeed in tribal colleges and technical and 
vocational certifications as well as traditional undergraduate and 
graduate programs. A five-member Board of Trustees is responsible for 
the oversight and supervision of the College Fund's administration of 
the Scholarship Fund and for developing and adopting a charter 
outlining its role and responsibilities. The American Indian College 
Fund is responsible for establishing the eligibility criteria for the 
award of scholarships as well as for managing and administering the 
Scholarship Fund. Twenty percent of the Fund's portfolio will be 
directed to support graduate students through the American Indian 
Graduate Center in Albuquerque, New Mexico. Benefits to Indian students 
as a result of these scholarships are anticipated in the near future.

                                 ______
                                 

    Mr. Young. Thank you, Mr. Roberts. A pleasure.
    Mr. Finley.

 STATEMENT OF MICHAEL O. FINLEY, CHAIRMAN, CONFEDERATED TRIBES 
                  OF THE COLVILLE RESERVATION

    Mr. Finley. Thank you. Good afternoon, Chairman Young. I 
hope that you can extend appreciation to Chairman Hastings for 
the wonderful introduction that he bestowed upon me this 
afternoon.
    My name is Michael Finley. I serve as Chairman of the 
Confederated Tribes of the Colville Reservation in Northeast 
Washington State. I also serve as first Vice President to the 
National Congress of American Indians, and Chairman to the 
Intertribal Monitoring Association of Indian Trust Funds. I 
will be testifying today as Chairman of the Colville Tribes.
    We are located, as I stated, in Northeast Washington State. 
We encompass about 1.4 million acres, bigger than the State of 
Delaware. The fractionation issues are large on Colville, and 
we are on the list to be treated here with the Buy-Back 
Program, hopefully shortly.
    I want to go back to 4 years ago, Mr. Chairman, if I may, 
and deviate a little bit from my testimony. Beginning 4 years 
ago, I worked closely with Chairman Hastings and other members 
of the party to try to rectify some of the problems that we 
have seen in the Cobell Settlement as it was making its way 
through Congress. And I think, Mr. Young, you were part of 
those discussions at certain points.
    There was a greater concern by tribal leaders about certain 
things that we have seen, based on our own experiences, that we 
thought meaningful and easy changes could be made to that 
settlement as it was making its way through. And, much to our 
surprise, I think the level of negativity, and the level of 
reluctancy, not only by the plaintiffs, but by the 
administration, I found it quite appalling, to be quite honest. 
There were simple changes that we were asking for. And by 
merely us asking questions, it seemed like we were being 
ridiculed for just wanting to ask questions about the Cobell 
Settlement.
    I think many at the time just wanted to rush through it, 
they didn't want us to ask questions. I think one of the 
hearings that was had here in this very room where I testified, 
I think there was pushback on that, for us to even have a 
hearing. And all that the tribal leaders wanted was to be heard 
at the time, because we had our own constituents who were 
directly impacted by this who wanted to know how it was going 
to affect them, and what it meant. And, to be quite honest, I 
didn't have all the answers, as a tribal leader, as their 
elected official. So when I went to ask questions and to 
articulate some of the concerns that were coming directly from 
my membership, it was met with some negative feedback.
    And, you know, I have to share. You know, for a time after 
that, I was cut off the White House mailing list, you know, for 
mass emails. And I had to actually go to our lobbyist to get 
them for a period of time. And at some point down the road I 
was added again. That may or may not be directly correlated, 
but I know, serving as Chairman to the ITMA board for a number 
of years, we were asking questions.
    We didn't want to kill the settlement, we were merely 
asking whether or not changes could be made. They had received 
funding for 10 years, straight up until that time. And when we 
started asking those hard questions, all of a sudden that 
funding went away. And that was funding that came from the 
Federal Government. Again, it may or may not be correlated to 
us asking questions, but judging the animosity that we were 
feeling at the time, I venture to say that they are, or they 
were. So, I just wanted to share that, as some of the 
experiences that I received after asking questions on why 
changes should be made to it before it had been approved 
through Congress.
    One of the major ones that I think we were able to get 
through Doc Hastings and even on the Senate side was to merely 
allow tribes to contract through 638, similar to a lot of the 
things that we do today. You know, it is enacted legislation 
that allows tribes to do a number of things, through contract 
in 638, but that was denied. Instead, now we are stuck with 
this cooperative agreement model that doesn't altogether work 
to our benefit.
    We want to have complete control over it. We want to allow 
the money, the $1.9 billion, to earn interest. Today, right 
now, the $1.9 billion is not earning interest. If it was done 
through 638 contracting, the tribes who receive their 
allocation, they could invest that money. But there is no 
interest being earned right now. And I don't know if it 
occurred to the people who drafted up the legislation then, or 
the people pushing it, whether it be on the plaintiff side or 
what have you, but it seems to me that is one thing that they 
would have wanted to include, and I am sure they have a good 
reason why.
    Another concern that my tribal members continue to have 
today, Mr. Chairman, is where is the second payment. They were 
promised it at the end of last year. Many of them were counting 
on it for Christmas, and it didn't come through. I know, as an 
elected official, if I promise my members they are going to get 
a payment before Christmas, that didn't come through, I 
wouldn't be sitting here in front of you today. I can tell you 
that. So, I think some answers need to be given to the tribes 
and their individual allottees on that point there.
    I know there are delays, and I am familiar with why there 
are delays. Some say it is because the attorneys fees haven't 
been finalized yet. But some say that is not exactly the truth. 
But I think if this committee had any interest, they might want 
to look into that to find out the reasons why.
    So the interest itself, if we can get some remedy to that, 
Mr. Chairman, I think that would go a long way to allow tribes 
to extend that dollar a lot further than what it is going to go 
today, because the $25.6 that is going to be allocated to 
Colville to deal with the fractionation issue is just a drop in 
the bucket to the complete problem that we have there.
    And we, as a tribe, historically have been very aggressive 
with our own buy-back purchase program, and we have done it 
quite successfully. We are second to only one tribe in the 
Pacific Northwest in total trust lands. And that is second to 
the Warm Springs in Oregon.
    The other part that I alluded to a little bit ago is we 
want to have complete control over the Buy-Back Program. We 
want to be a part of the outreach, the land research, the 
evaluation, the acquisition parts of it. And especially the 
acquisition, because we are dealing with our tribal members. We 
know our tribal members better than anybody.
    Mr. Young. Michael, you are about out of time.
    Mr. Finley. OK. I will wrap it up there.
    With that, I just want to thank you. And I appreciate the 
opportunity to be here today. This is something I am very 
passionate about, and I have a lot more I want to share, but a 
lot of it is in my written testimony. So I appreciate the 
opportunity, Mr. Chairman, thank you.
    [The prepared statement of Mr. Finley follows:]
   Prepared Statement of The Honorable Michael O. Finley, Chairman, 
            Confederated Tribes of the Colville Reservation
    Good afternoon Chairman Young, Ranking Member Hanabusa, and members 
of the subcommittee. My name is Michael Finley and I am the Chairman of 
the Confederated Tribes of the Colville Reservation (``Colville 
Tribes'' or the ``CCT''). I also serve as the First Vice President of 
the National Congress of American Indians and the President of the 
Intertribal Monitoring Association on Indian Trust. I appreciate the 
opportunity to testify today in my capacity as Chairman of the Colville 
Tribes on the implementation of the Cobell settlement and the 
Department of the Interior's Land Buy-Back program.
    My testimony will focus on how the Cobell settlement came to be 
approved and how many of the issues that tribes have raised about the 
Buy-Back program could have been resolved had the changes that tribal 
leaders requested been incorporated into the settlement 4 years ago. I 
also have three specific recommendations for the Department and the 
subcommittee to consider to improve the Buy-Back program.
    First, I would like to provide some background on my people and our 
land. Although now considered a single Indian tribe, the Confederated 
Tribes of the Colville Reservation is, as the name states, a 
confederation of 12 aboriginal tribes and bands from all across the 
plateau region of the Northwest and extending into Canada. The present-
day Colville Reservation encompasses approximately 1.4 million acres 
and is located in north-central Washington State. The Colville Tribes 
has nearly 9,500 enrolled members, making it one of the largest Indian 
tribes in the Pacific Northwest. About half of the CCT's members live 
on or near the Colville Reservation, which has more than 800,000 acres 
of forest land.
  indian tribes and organizations wanted the cobell settlement changed
    When the Cobell settlement was still being considered by Congress 4 
years ago, Indian tribes and tribal organizations requested certain 
changes to the settlement. These included changes to the land 
consolidation portion of the settlement and the Buy-Back program. The 
Indian Land Consolidation Act allows tribes a role in administering the 
Buy-Back program but it explicitly prohibits Indian tribes from 
contracting or compacting the program under the authorities in the 
Indian Self-Determination and Education Assistance Act (``ISDEAA'').
    In an April 27, 2010, letter to tribal leaders, Senate Committee on 
Indian Affairs Ranking Member John Barrasso sought input on five 
changes to the Cobell settlement. The changes included capping pre-
settlement date attorneys' fees, expenses, and costs at $50 million; 
limiting any ``incentive awards'' under the settlement to named 
plaintiffs to actual, unreimbursed out-of-pocket expenses incurred by 
that plaintiff; having the court-appoint a Special Master to select the 
bank for holding the settlement funds; and setting aside $50 million 
from the $1.412 billion settlement monies as a reserve fund to address 
specific instances where the Special Master determined the formula 
payment is insufficient or unfair. The final change Senator Barrasso 
proposed in his letter would have required the Department to consult 
with Indian tribes in planning, designing, and setting the priorities 
for the land consolidation portion of the settlement and to allow 
Indian tribes to implement the Buy-Back program under the ISDEAA.
    The Administration and the Cobell class representatives vigorously 
objected to the changes. It seemed that they both wanted to create the 
perception that asking questions about the settlement--let alone 
suggesting changes--meant you were in favor of ``killing'' the 
settlement. To the contrary, the tribal leaders and organizations that 
supported changing the settlement did so out of a desire to ensure 
fairness and adequate protections for their constituents, Indian 
beneficiaries generally, and tribal governments.
    The Affiliated Tribes of Northwest Indians (``ATNI''), the Great 
Plains Tribal Chairman's Association, and the National Congress of 
Americans Indians all passed resolutions or otherwise expressed support 
for the proposition that changes to the Cobell settlement must be made. 
All three of these entities referenced contracting or compacting the 
Buy-Back program under the ISDEAA in the changes they endorsed. Based 
on this tribal support, then-Ranking Member Doc Hastings proposed an 
amendment that would have incorporated the changes adopted in the ATNI 
resolution and Senator Barrasso's April 27 letter. The House majority 
at the time did not allow that amendment to be considered on the House 
Floor.
    Congress ultimately approved the settlement as part of the Claims 
Resolution Act of 2010 and the foregoing is now a historical footnote. 
As enacted into law, $1.9 billion was appropriated for the Buy-Back 
program. It is ironic, however, that many of the issues and concerns 
that tribes have expressed about the Buy-Back program over the past 
year could have been addressed had the parties to the settlement 
incorporated the changes that tribes requested.
    For example, nearly every tribe is concerned about the prospect of 
unspent funds appropriated for the Buy-Back program reverting back to 
the U.S. Treasury after 10 years. Many tribes are similarly concerned 
about the level of involvement they will be allowed to have in 
implementing the program. These would not be issues today had the 
Cobell settlement been amended 4 years ago to allow tribes to contract 
or compact the program under the ISDEAA.
      the colville tribes' implementation of the buy-back program
    In the Buy-Back program's updated implementation plan, the CCT is 
listed as number 15 out of the 40 tribes identified for initial 
deployment of the program. The plan states that the CCT will have 
approximately $25.6 million available to purchase fractionated 
interests. For decades, the CCT has carried out its own land 
consolidation program using tribal funds and fully expects to spend all 
of this money. In 2013 alone, the CCT purchased $6.5 million of 
fractionated interests from tribal members using proceeds from its $193 
million trust mismanagement settlement with the United States. Demand 
on the part of tribal members to sell their land to the CCT has always 
been high and we expect this to continue to be the case going forward.
    The CCT is currently verifying the accuracy of the trust land 
ownership records on the Colville Reservation. On most reservations, 
these records are not accurate. The CCT wants to ensure that any offers 
to purchase Colville tribal members' fractionated interests will 
accurately reflect the members' landholdings. The CCT is also 
attempting to obtain certain information so that it can ascertain which 
tracts of land it will prioritize for purchase. The CCT has expressed 
its intent to the Department to enter into a cooperative agreement to 
administer as much of the Buy-Back program as possible.
                            recommendations
    Based on the work we have done so far, we offer the following 
recommendations to improve the Buy-Back program:
(1) Allow Tribes to Invest their Allocated Buy-Back Funds
    For the 10-year duration of the program, the $1.9 billion 
appropriated for the Buy-Back program will sit in a non-interest 
bearing account and gain no value over time. For whatever reason, it 
did not occur to the architects of the settlement that the Department 
should be able to invest the $1.9 billion and retain the earnings for 
the program. The ISDEAA allows funds for contracted or compacted 
programs to be transferred directly to tribes, at which point the 
tribes can invest the funds themselves. Again, had the ISDEAA change 
been incorporated, this would not be an issue.
    It only makes sense to maximize the amount of funds available to 
purchase fractionated interests by allowing this large appropriation to 
earn value over time to increase the number of interests that can be 
purchased. The 10-year clock has already begun ticking for the $1.9 
billion principal to be spent. Every fiscal year that goes by without 
this money being invested represents money and opportunity lost.
    It would require congressional action for the Department to be able 
to invest the Buy-Back appropriation and retain the earnings. Tribes, 
however, can invest their allocated purchase ceiling funds if the funds 
could be transferred directly to them and not held by the Department. 
The details of such an arrangement could be included in an escrow 
agreement or as part of a cooperative agreement. The CCT intends to 
propose this as part of its cooperative agreement as a means of 
maximizing the funds available to consolidate its land base.
(2) Make Land Data More Readily Available at No-Cost to Tribes
    The BIA's system for recording title to Indian trust lands is 
called the Trust Asset and Accounting Management System, or ``TAAMS,'' 
as it is commonly referred. The TAAMS system was developed by CGI 
Federal, the same contractor that developed the healthcare.gov website 
that received widespread media attention last fall.
    The CCT understands that through some arrangement, CGI Federal 
retains an ownership interest in the TAAMS system. While a small number 
of tribes like the CCT have access to the TAAMS system, the system is 
not designed to make extrapolation of data user friendly. CGI Federal 
has been separately marketing itself to Indian tribes as an entity that 
can obtain data from the TAAMS system. The CCT will likely have to pay 
CGI Federal more than $20,000 to obtain the information and data that 
it needs to implement the Buy-Back program.
    This is an absurd result and should never have been allowed to 
happen in the first instance. We encourage the subcommittee to explore 
how the arrangement between the Department and CGI Federal began and 
what, if anything, can be done right now to ensure that tribes do not 
have to pay CGI Federal or other third parties for data that should be 
readily available.
(3) Allow Tribes to Perform All Land Acquisition Functions
    The Buy-Back program is divided into four phases: outreach, land 
research, valuation, and acquisition. It is imperative that those 
tribes with the capacity be allowed to perform all phases, but 
especially the acquisition phase. Tribes are in the best position to 
consummate land sales and issue deeds to close out the transactions. 
Tribal control over the acquisition phase will also allow tribes to 
exchange tribal trust land for fractionated interests. If individuals 
are reluctant to sell because they want to maintain an ownership 
interest in Indian land, this type of an exchange would allow for those 
individuals' interests to be consolidated while giving them an interest 
in tribal land in return. The key to these activities is tribal control 
over the acquisition function.
    I appreciate the subcommittee's consideration of this testimony. We 
look forward to working with the subcommittee and the Department on 
these and other issues. At this time I would be happy to answer any 
questions the members of the subcommittee may have.

                                 ______
                                 

  Questions Submitted for the Record to Michael O. Finley, Chairman, 
            Confederated Tribes of the Colville Reservation
                Question Submitted by Chairman Don Young
    Question 1. In your statement you mentioned that there were 
consequences for those who advocated for changes to the Cobell 
Settlement Agreement. When the Settlement Agreement was still pending 4 
years ago, what were tribal leaders saying about efforts to change it?

    Answer. Many tribal leaders were privately supportive of efforts to 
change the settlement but for various reasons were not in a position to 
make their views publicly known. At the time, the Administration was 
coordinating a number of meetings on other initiatives of interest to 
Indian country. Some tribal leaders expressed concern that publicly 
advocating for changes to the Cobell settlement might lead to them not 
being invited to participate in these unrelated initiatives.
         Question Submitted by Ranking Member Colleen Hanabusa
    Question 1. You say that you would like to administer the Buy-Back 
Program through self-determination contracts. What is the difference 
between self-determination contracts and cooperative agreements through 
which you may now administer the Buy-Back Program and why would you 
prefer one over the other?

    Answer. Self-determination contracts explicitly allow funds for 
contracted programs to be transferred to tribes at the tribes' request. 
This essentially means that tribes have custody and control of the 
funds and could incorporate the funds into the tribes' own investment 
plans or otherwise earn value over time with the money.
    As ratified by Congress, the Cobell settlement did not contain any 
authority for the Department of the Interior to invest the 
appropriation for the Buy-Back program or to retain the proceeds of 
such an investment. Currently, this $1.9 billion appropriation is in a 
non-interest bearing account and will be for the life of the program. 
We prefer the self-determination contract model because it would allow 
tribes to maximize the number of interests by investing their allocated 
Buy-Back program funds.
               Question Submitted by Rep. Rauul Grijalva
    Question 1. In your statement you propose a few recommendations for 
the Buy-Back program and one of them is to allow tribes to perform all 
land acquisition functions. I am interested to know how could we be 
assured that this one-sided process would be done in [a] transparent 
manner? And I am also curious to know too, how do you define ``tribes 
with the capacity'' to be allowed to perform land acquisition since 
every tribe is so different?

    Answer. The Colville Tribes is interested in having control of the 
acquisition function because we want to be able to generate, or re-
generate, as the case may be, offer packets to landowners when we 
conduct outreach meetings to prospective sellers. Often, when our 
tribal members receive official government correspondence in the mail 
they set it aside until someone more knowledgeable can explain what the 
letter is and how it may affect them. We anticipate significant 
interest in our outreach presentations and want to be able to give 
landowners the appropriate paperwork onsite if they lost or misplaced 
their original offer packet.
    Ensuring transparency in the acquisition process would, for 
practical purposes, be self-executing since our control of the function 
would result in the dissemination of more information in a more 
convenient manner.
    Carrying out the acquisition function involves having access to the 
TAAMS system and knowledge of BIA realty operations. One measure of 
tribal capacity to carry out this function could be whether the tribe 
has contracted either BIA realty functions or Land Title Records 
Offices. Both of these functions require the tribe in question to have 
significant capacity.

                                 ______
                                 

    Mr. Young. I hope you take the time to talk to Doc Hastings 
and myself. Because I was unaware, and shows how ignorant I can 
be, which is quite evident, I didn't know that fund was in a 
non-interest bearing account, and that was done by the 
administration. I don't understand that. This is a settlement. 
You ought to be making money off of it. So we may take care of 
that.
    Mr. John Berrey.

  STATEMENT OF JOHN BERREY, CHAIRMAN, QUAPAW TRIBE OF OKLAHOMA

    Mr. Berrey. Thank you very much for inviting me here today, 
Mr. Chairman. I would like to thank Congressman Daines and 
Congressman Grijalva for participating, and also Markwayne 
Mullin, who is my congressman. I think he will be here shortly.
    I echo a lot of the same concerns as my friend, Mike 
Finley. The Quapaw Tribe of Oklahoma, which I am the chairman, 
has been involved in tribal land purchases for nearly 10 years. 
I am in my 14th year as chairman of the tribe. We are a 638 
tribe, which we compact or contract all the functions of the 
Department of the Interior, except for the IIM account 
management.
    Several of my tribal members opted out of the Cobell 
litigation, because they didn't believe it was the proper case 
for their claims of years and years of heavy mining done on our 
land that has left some of the land in bad condition.
    But the reason I am here today is I really, we believe in 
the spirit of this settlement and this Buy-Back Program. We 
believe in the tribe's ability to make economies out of land 
use when they become the single owner and single decisionmaker 
that allows us to make money. And that is the business that I 
am in. I am into making our land useful and our opportunities, 
so I can provide services to my tribal members. That is what I 
do every day. And we buy land every day.
    But our frustration is we don't seem to be able to get 
through the door of being part of this Buy-Back Program. We 
were the first tribe to provide a cooperative agreement to the 
Department of the Interior, and we still today don't have any 
kind of agreement or way forward to be part of this program. I 
have a number of tribal members that are ready, willing, and 
able to sell their land. They want to sell it. I have given 
them offers. I have the appraisals, I have the surveys. I have 
all the work done. We are not even asking for the 
administrative costs. We are just asking for the money to pay 
for the land within the spirit of the settlement.
    We have a very sophisticated realty department. We know all 
of our members. We know where all the land is. And I am in 
constant communication with all my tribal members. And they ask 
me every day when are they going to get to sell their land, 
because they need the money. It is like the members at 
Colville. You know, not all my tribal members have a lot of 
cash, and they see this as an opportunity to better their 
families, and maybe even buy some food or electricity.
    So, it just dumbfounds us that we are prepared, we provided 
the names, I mean we provided everything to the Department, but 
yet, to this day, we are not part of the program. We think it 
is a great program, it is going to allow for economies for the 
tribe, which will benefit my tribal members. It is going to 
reduce the burden of the management of the Department of the 
Interior on all these fractionated interests, which, hopefully, 
will allow the Department of the Interior to have more 
resources to do the things that they are there to do, and they 
can work with us further and have the opportunity with less 
fractional problems. And we just see this as a win-win for 
everyone.
    Our fear is we are 4 years into this thing. We are knocking 
on the door every day, saying, ``We want to be part of this.'' 
We have done all the legwork, we have done the outreach. We 
have the willing sellers, but they are not interested in 
working with the Quapaw Tribe, and we don't know why.
    We have, in our part of Oklahoma, we have the most land 
base, the most fractionated tracks, and we are on the list, 
even though we may be low down on the list, we are still on 
that list. And we are very frustrated. And we think we can help 
the Department with some success. If they would just come to 
the table and meet with me, we could start selling property and 
purchasing property today, and we could move them closer to an 
era of less fractional problems of the Quapaw.
    So, with that, I would just leave myself. We are trying to 
become the largest bison herd in Northeast Oklahoma. We are 
about to spend nearly a million dollars on registered Black 
Angus cattle, so we could be the largest beef producer in 
Northeast Oklahoma. But we need more land. And the way that we 
want to partially get there is through this Buy-Back Program, 
and we would really like to be part of it, so we could build 
economies, and I could provide better benefits for my tribe.
    So, if you have any questions for me at any time, I will be 
happy to answer them, and I appreciate the opportunity, sir.
    [The prepared statement of Mr. Berrey follows:]
Prepared Statement of The Honorable John Berrey, Chairman, Quapaw Tribe 
                        of Oklahoma (O-Gah-Pah)
                              introduction
    Good afternoon Chairman Young, Ranking Member Hanabusa, my own 
Congressman Markwayne Mullin, and honorable members of the subcommittee 
on Indian and Alaska Native Affairs.
    My name is John Berrey and I am the Chairman of the Quapaw Tribe of 
Oklahoma (O-Gah-Pah, hereafter Tribe), located in far northeast 
Oklahoma.
    I very much appreciate the invitation to appear before you today to 
discuss the Land Buy-Back Program for Tribal Nations (the Buy-Back 
Program), the $1.9 billion initiative to help re-consolidate 
fractionated Indian lands across the country.
    As you know, this initiative was included in the Cobell v. Salazar 
settlement in ratified by Congress in 2010.
    I want to thank you for holding this hearing: it is timely and 
aptly named because I believe there are real opportunities being missed 
and, as we all know, this program is probably our last, best shot to 
re-consolidate Indian lands and make them economically viable again.
                major objectives of the buy-back program
    The major objectives of the Buy-Back Program are to:

  1.  Allow interested tribal members to receive payments for 
            voluntarily selling their land at fair market value;
  2.  Reduce the number of fractionated interests in trust or 
            restricted lands;
  3.  Structure acquisitions to maximize the number of tracts in which 
            tribes gain a controlling ownership interest to unlock land 
            for beneficial use or conservation, as determined by the 
            applicable tribe; and
  4.  Deploy tribal resources such as realty and land management staff 
            and officials to minimize the burdens to the Department of 
            the Interior (the Department).

   re-consolidating its land base a top priority of the quapaw tribe
    An issue of major importance to the tribe and its members is the 
consolidation in the tribe of the many fractionated interests of our 
Indian lands. Over the past decade, the tribe has developed and 
implemented one of the most sophisticated and successful Indian land 
consolidation programs in the country.
    Since the Buy-Back Program was enacted, the tribe has been working 
with department officials in its pursuit of a formal relationship from 
which to use Buy-Back Program funds to reduce fractionation and restore 
the tribe's land base. We are somewhat frustrated, because, despite the 
success we have in the area of Indian land consolidation, to date we 
have not been allowed to participate in the program.
    In early 2013, the tribe submitted to the Department a proposed 
Cooperative Agreement outlining how the tribe's participation in the 
Buy-Back Program would benefit our tribal members and also demonstrate 
that significant land consolidation can occur if carried out properly. 
Various officials at the Department were appreciative for the tribe's 
submissions, and even commented that they had aided the Department in 
preparing additional templates for the program.
    After several meetings and conversations with Department staff 
regarding the evolving contours and requirements of this historic land 
consolidation program, in March 2013, the tribe submitted a revised 
Cooperative Agreement reflecting our understanding of what factors and 
elements the Department would view favorably, leading hopefully to our 
involvement in the Buy-Back Program.
    The Department's response was not favorable. A Buy-Back Program 
official acknowledged the tribe's strong desire to participate in the 
Program, but went on to note that

        ``if the tribe is still interested in pursuing a cooperative 
        agreement, I encourage the tribe to submit a cooperative 
        agreement application focusing on non-Superfund fractionated 
        tracts and in light of the cooperative agreement guidelines 
        published since March 2013.''

    The Department's position is not only disappointing; it shows a 
fundamental misunderstanding of the Tar Creek site and the fact that 
large tracts of fractionated land within that site are not contaminated 
and are, in fact, being used for agricultural and other purposes. It 
has also caused us to question the overall openness and fairness of the 
program, as it is currently being structured.
       past efforts and tribal acquisition of individual parcels
    The only rationale the tribe has been provided for being excluded 
from the Buy Back Program is that the Department does not want it to 
buy fractionated land within the Tar Creek Superfund site (the 
Superfund site).
    We do not know the basis for this position and, in fact, have tried 
without success to get the Department to fully articulate its position. 
But it does not appear to be the true reason.
    As explained below, the fact is the Department routinely approves 
gift conveyances from restricted owner to restricted owner within the 
Superfund site, and the Department also regularly approves probate 
conveyances to the tribe from the estates of tribal members relative to 
restricted and trust parcels within the Superfund site.
    For many years, the tribe has sought to use the Indian Land 
Consolidation Act to acquire title to fractional interests in Indian 
land both within and outside the boundaries of the Superfund site. The 
tribe has been successful in acquiring various parcels outside this 
site, but there currently are dozens of applications by tribal members 
who have already expressed their keen interest in selling their parcels 
at the site to the tribe.
    In its proposed Cooperative Agreement, the tribe has offered to 
deploy its realty and other land-related offices and staff, made an 
extremely cost-effective proposal to use Buy-Back Program funds to 
consolidate fractional interests, and has offered to acquire these 
interests without asking for administrative funding authorized by 
Congress in 2010.
    There is no provision in law, or for that matter in the 
Department's updated implementation program, that would prevent these 
transactions from being consummated.
    The tribe obtains conveyances of fractional interests in Indian 
land within the site through the probating of the estates of tribal 
members. As you know, the probate process is slow and does not keep 
pace with land fractionation. Further, and despite suggestions from the 
Department that the tribe look to non-Superfund site parcels in order 
to participate in the Buy-Back Program, the reality is that tribal 
members regularly obtain fractional interests in trust and restricted 
land within the Superfund site. This belies the Department's position 
that these in-site parcels cannot be consolidated in the tribe.
    Last, the tribe has met repeatedly with Bureau of Indian Affairs 
officials and expressed the tribe's willingness to explore the 
possibility of mutually acceptable language or other approaches to 
ensure the Federal Government incurs no new liability by virtue of 
these conveyances for purposes of land consolidation. These efforts 
have also failed.
    I am not here to indict anyone, and I really have no information 
other than what I have mentioned about why the Department seems 
disinterested in working with the Quapaw Tribe through a cooperative 
agreement. I do want to point out that realty matters can be very 
difficult for an Indian tribe to administer if the tribe has not had 
extensive experience in the area.
    Tribes such as the Quapaw Tribe, with highly successful land 
consolidation programs, can serve as models to other tribes. The 
Department should not let inclusion in the Buy-Back Program be guided 
by illegitimate reasons. The program should be open, and tribes, 
particularly those with a demonstrated record of accomplishments in the 
land consolidation area, should be allowed to participate.
    In summary, in our experience, the Department seems to have a 
private agenda concerning what tribes will be permitted to participate 
in the Buy-Back Program. In our case, the Department is, for whatever 
reason, showing a lack of interest in working with a tribe that has 
been extremely successful in this area, and that could serve as a model 
for efficiently consolidating fractional interests in Indian land.
        recommendations to ensure the buy-back program succeeds
    As of January 2014, the Department has agreed to Cooperative 
Agreements with five (5) Indian tribes: the Confederated Salish and 
Kootenai Tribes, the Northern Cheyenne Tribe, the Oglala Sioux Tribe, 
the Makah Indian Reservation, and the Rosebud Sioux Reservation.
    I am happy for these tribes and am hopeful the Buy-Back Program is 
a success for them. At the same time, there are hundreds of tribes 
suffering from a fractionated land base and more must be done 
immediately to ensure this once-in-a-lifetime program works for the 
benefit of Indian people.
    As you know, time is of the essence because authority for the Trust 
Land Consolidation Fund expires on December 8, 2020--10 years after the 
date of final settlement of the Claims Resolution Act.
    The National Congress of American Indians (NCAI) has approved a 
resolution urging changes be made to the land consolidation program 
and, most recently, has issued a letter to Interior Secretary Jewell 
urging the Buy-Back Program be opened up to additional tribes in an 
expeditious manner.
    I have included copies of NCAI's resolution and NCAI President 
Cladoosby's letter to Secretary Jewell to this prepared statement.
    As the Department moves forward in implementing the Buy-Back 
Program, the Congress should re-consider two key issues in order to 
achieve the maximum value for the $1.9 billion it has authorized:

    1. The use of contracts and compacts under the Indian Self-
Determination and Education Assistance Act to carry out the Program. 
These contracts are widely used in Indian Country, tribes have a 
thorough familiarity with them, and Buy-Back funding can be funneled to 
tribal communities through them.
    As the subcommittee knows, the use of ISDEAA contracts and compacts 
was hotly debated by the Department and the Congress, with the 
department insisting they not be included in the final version of the 
Cobell settlement.
    During post-enactment consultation sessions, tribes again raised 
the idea of using ISDEAA contracts and this suggestion was similarly 
rejected.

    2. Congress should authorize the Department to earn interest on the 
$1.9 billion fund. Currently, the Department is prohibited from seeking 
interest on this money and, in the process, is losing a valuable 
opportunity to augment the funding level contained in the original 
settlement.

    3. Congress should encourage the Department to re-evaluate its 
criteria for offering cooperative agreements to tribes, and should 
ensure that decisions are not being made arbitrarily.
    The program should be open, especially to tribes such as ours that 
have made viable, cost-effective proposals, and that have a proven 
track record of actually accomplishing the goals of Indian land 
consolidation. In this regard, I encourage Congress to continue its 
oversight of the Department's administration of this important program.
                               conclusion
    Given the opportunity, my tribe will work with the department to 
acquire and consolidate fractional interests owned by tribal members.
    In the process, we can demonstrate to like-minded tribes that the 
goals of the Buy-Back Program can be accomplished if the department and 
tribes work collaboratively and effectively.
    Thank you for your consideration of my testimony. I am happy to 
answer any questions you might have.

Attachments

NCAI Resolution #PDX-11-041 (2011)
NCAI Letter to Secretary Jewell (December 18, 2013)
[GRAPHIC] [TIFF OMITTED] T7534.001

.eps[GRAPHIC] [TIFF OMITTED] T7534.002

.eps[GRAPHIC] [TIFF OMITTED] T7534.003

.eps[GRAPHIC] [TIFF OMITTED] T7534.004


                                 .eps__
                                 

    Mr. Young. Thank you. Thank you very much. Questions will 
come when everybody testifies.
    Mr. Burke.

 STATEMENT OF GARY BURKE, CHAIRMAN, CONFEDERATED TRIBES OF THE 
                  UMATILLA INDIAN RESERVATION

    Mr. Burke. Good afternoon, Chairman Young, Ranking Member 
Hanabusa, and members of the subcommittee. My name is Gary 
Burke. I am the Chairman of the Confederated Tribes of the 
Umatilla Indian Reservation. Joining me today is Bill Tovey, 
whose department has taken lead on the participation of the 
Land Buy-Back Program. I appreciate the opportunity to provide 
testimony on implementation of the Land Buy-Back Program under 
the Cobell Settlement, which we view as a historic opportunity 
to restore CTUIR ownership of reservation lands, as intended in 
our treaty of 1855.
    The Land Buy-Back Program has determined that the Umatilla 
Reservation is the 28th most fractionated reservation in the 
country. Our reservation is on the list because of the Umatilla 
Allotment Act, passed in 1885, which resulted in the sale of a 
third of our reservation to non-Indian settlers, the allotment 
of the remainder of the reservation to tribal members, the loss 
of 50 percent of the allotted lands to non-Indian ownership, 
due to probate sale, tax foreclosures. Fifty percent of the 
allotment still is in trust or owned by Indians who are not 
enrolled in our tribe.
    By the 1970s my tribe, a minority of land owners on the 
reservation that our treaty has established for our exclusive 
use. For the past three decades, the CTUIR has prioritized and 
dedicated considerable resources to the restoration of our 
reservation land base. We have allocated a portion of our 
tribal revenues to re-acquire reservation lands, enacted an 
inheritance code to prevent the loss of trust lands upon the 
death of an Indian land owner, establish a land trust, tribal 
land program to manage the re-acquisitions of the reservation 
lands, compacted the realty and appraisal functions of the BIA.
    The experience of our tribal land program can be measured 
by the success. We have acquired 42,000 acres in the 740 land 
transactions at a cost of some $23 million. Most importantly, 
our tribal staff know our reservation lands and land owners, 
which will be essential to the success of the Land Buy-Back 
Program on our reservation. As described in more detail in our 
written testimony, we urge Land Buy-Back Program to address 
these problem areas.
    Land buy-back funds should be made available to reimburse 
tribes for the purchase of fractionated trust allotment under 
tribal probate or inheritance codes. The Land Buy-Back Program 
needs to provide adequate contract support, cost, and tribal 
grants for the implementation of the program. The Land Buy-Back 
Program needs to provide information to affected tribes on what 
has worked and what has not in the implementation of the 
program on the other reservations.
    The Department of the Interior needs to commit to 
personnel, specifically appraisers, reviewers, to ensure the 
timely implementation of the Land Buy-Back Program. We believe 
that tribal involvement is critical in the success of the Land 
Buy-Back Program. We have developed a statement of work which 
would involve our tribe in all phases of the program. We 
believe that our staff, given the right experience and 
knowledge, can effectively implement the Land Buy-Back Program 
on our reservation.
    CTUIR is prepared and more than willing to spend additional 
land buy-back funds if we were to become available within the 
10-year period. The Land Buy-Back Program is a small, but 
important step by the United States to honor our treaty, and to 
reverse the failed allotment policy of the 18th-19th century.
    Consistent with the current Federal land policy, Indian 
policy, the successful implementation of the Land Buy-Back 
Program can improve travel, self-determination, self-
sufficiency, by reducing fractionated ownership of reservation 
lands, and thereby increasing the ability of tribes to make 
beneficial use of the lands.
    Once again, I appreciate the opportunity to provide our 
perspectives on the Land Buy-Back Program. We look forward to 
working with you to ensure the success of the Land Buy-Back 
Program on our reservation.
    With that said, I want to thank everyone for listening to 
the testimony. And, most of all, Elouise Cobell, on her intent 
of what she set out to do. Thank you.
    [The prepared statement of Mr. Burke follows:]
Prepared Statement of Gary Burke, Chairman, Confederated Tribes of the 
                      Umatilla Indian Reservation
    Good Afternoon Chairman Young, Ranking Member Hanabusa, and members 
of the subcommittee, my name is Gary Burke and I am Chairman of the 
Board of Trustees, the governing body of the Confederated Tribes of the 
Umatilla Indian Reservation (CTUIR). I appreciate the opportunity to 
provide testimony on the implementation of the Land Buy-Back Program 
under the Cobell settlement. My tribe views the Land Buy-Back Program 
as an historic opportunity to restore CTUIR ownership of Reservation 
lands as intended in our Treaty of 1855.
    Pursuant to Article I of our Treaty, the CTUIR ceded 6.4 million 
acres of its aboriginal lands in exchange for the Umatilla Indian 
Reservation, which was set aside for the ``exclusive use'' for the 
Cayuse, Umatilla and Walla Walla tribes. However, due to failed Federal 
policies of the past, we lost over two-thirds of our Reservation land 
base. The CTUIR has long prioritized the restoration of the Reservation 
land base set aside in our Treaty, and the Land Buy-Back Program will 
play a critical role in accomplishing that important goal.
    The loss of our Reservation land base occurred shortly after our 
Treaty was ratified in 1859. In 1882, Congress severed 640 acres from 
the western end of the Reservation to facilitate the growth of the city 
of Pendleton. In 1885, 2 years before the General Allotment Act became 
law, Congress passed the Umatilla Allotment Act which allotted and 
diminished the Reservation established under our Treaty. The 1885 law 
diminished the Reservation by opening up some 90,000 acres of 
Reservation land for sale to settlers. The allotment of our Reservation 
under the 1885 law resulted in the loss of approximately one-half of 
tribal lands within the diminished Reservation to non-Indian ownership 
due to probate, sale and tax foreclosure. When we celebrated the 100th 
anniversary of our Treaty in 1955, the Reservation established by our 
Treaty had been largely lost to non-Indian ownership. Of the original 
Treaty Reservation of 250,000 acres, we had lost one-third of our 
Reservation due to diminishment and another third to non-Indian 
acquisition of allotments issued to tribal members.
    The allotment of our Reservation has also resulted in fractionated 
ownership of the individual allotments issued to tribal members. 
According to the Updated Implementation Plan for the Land Buy-Back 
Program, the Umatilla Indian Reservation is the 28th most fractionated 
Reservation, with 1,015 fractionated allotments totaling 66,945 acres 
which contain 18,828 purchasable fractional interests. Fractionated 
ownership of these lands makes use and management of these lands 
difficult, and in many cases impossible, because of the large number of 
landowners and the difficulty in contacting and securing the consent of 
those landowners for a particular use. We have also learned that a 
large percentage of the owners of these fractionated interests are 
Indians that are not enrolled in our tribe. For example, when we 
renegotiated a pipeline right-of-way (ROW) that traversed some 13 miles 
through our Reservation in the late 1990s, approximately two-thirds of 
the owners of the allotments burdened by the ROW were Indians enrolled 
in tribes other than the CTUIR.
    For the past three decades, the CTUIR has dedicated considerable 
resources to the restoration of our Reservation land base. We have 
enacted laws, dedicated tribal revenues and developed tribal programs 
to reacquire Reservation lands within our Treaty Reservation boundary 
and to prevent the loss of tribal trust lands upon the death of Indian 
landowners.
    The Land Buy-Back Program provides a means to restore tribal 
ownership of fractionated interests in trust allotments. Our tribe has 
prioritized 400 fractionated allotments, out of a total of 
approximately 1,300 allotments on the Reservation, for acquisition 
under the Land Buy-Back Program. These prioritized allotments are 
heavily fractionated, have a large percentage of ownership by Indians 
enrolled in tribes outside of our own, or otherwise have important 
cultural, natural resource or economic and community development 
significance.
    The CTUIR is well prepared to participate in the implementation of 
the Land Buy-Back Program on our Reservation. The experience and 
expertise of our Tribal Land Program, which had led the tribal effort 
to restore our Reservation land base over the past 30 years, is 
critical to the success of each phase of the Land Buy-Back Program. The 
success of our Tribal Land Program can be quantified: we have acquired 
42,000 acres in 740 land transactions at a cost of some $23 million. 
The CTUIR has also compacted the realty and appraisal functions from 
the BIA. Our Tribal GIS staff have extensively mapped our Reservation, 
including Reservation allotments. Most importantly, our tribal staff 
know and have dealt with our Reservation lands and their landowners, 
which will be essential to the success of the Land Buy-Back Program on 
our Reservation.
    The CTUIR is anxious to have the Land Buy-Back Program implemented 
on our Reservation. We have been working diligently for more than a 
year to develop a plan for tribal participation in the outreach, land 
research, land valuation and acquisition phases of the Land Buy-Back 
Program. For the past 6 months, we have been negotiating for a 
Cooperative Agreement with the Land Buy-Back Program that defines and 
funds the work we would perform to implement the Program. While we are 
frustrated at how slow the process has been, we believe we are getting 
close to finalizing our Cooperative Agreement.
    Based on our experience, we urge the Land Buy-Back Program to 
address these problem areas:
    1. We believe that Land Buy-Back funds should be made available to 
reimburse tribes for the purchase of fractionated trust allotments 
under tribal probate or inheritance codes. Under our CTUIR Inheritance 
Code, we have the right to prevent the transfer of trust lands by will 
or intestacy to a non-member of the CTUIR upon the payment of fair 
market value. We have requested that the Land Buy-Back Program 
reimburse our acquisitions under this Code dating back to the Federal 
court approval of the Cobell settlement in November 2012. To date, the 
Land Buy-Back Program has not agreed to this request. The CTUIR 
believes our request should be granted because these probate 
acquisitions achieve the objectives of the Land Buy-Back Program by 
acquiring fractionated interest in trust lands and transferring 
ownership to the tribe at fair market value as determined by the 
Department of Interior.
    2. The Land Buy-Back Program needs to ensure that it provides 
adequate contract support costs as a component of the grants to tribes 
for the implementation of the Program. As the subcommittee is aware, 
this has been an issue that the U.S. Supreme Court has addressed in the 
Salazar v. Ramah Navajo Chapter, 132 S. Ct. 2181 (2012), holding that 
the United States had a contractual obligation to pay full contract 
support costs under the Indian Self-Determination and Educational 
Assistance Act, 25 U.S.C. Sec. 450 et seq. To date, the Land Buy-Back 
Program has taken the position that it can only pay contract support 
costs in the amount of 15 percent of the tribal grant under a 
Cooperative Agreement. We have also been informed that we will not 
receive any contract support funding for grant funds that are used to 
pay subcontractors or to acquire equipment. While we are mindful of, 
and support, the Cobell settlement 15 percent cap on administrative 
costs under the Land Buy-Back Program, the Land Buy-Back Program 
position on paying tribal administrative costs to implement the Land 
Buy-Back Program is too restrictive. We have proposed, and to date, the 
Land Buy-Back Program has not accepted, that the tribe receive 
administrative costs in the amount of 15 percent of its total grant. We 
believe our proposal would provide tribes sufficient contract support 
costs funding to carry out Land Buy-Back Program functions and be 
consistent with the 15 percent administrative expenses cap contained in 
the Cobell settlement.
    3. The Land Buy-Back Program needs to provide more information to 
affected tribes on the roll-out of the Program in Indian Country. It 
would be helpful to us to learn about what has worked, what has 
underperformed and what has failed in the implementation of the Land 
Buy-Back Program on other reservations. It's equally important that we 
receive information about the rate of acceptance of offers to purchase 
made to Indian landowners under the Land Buy-Back Program. The CTUIR, 
and other participating tribes have a shared interest with the Land 
Buy-Back Program in the success of the Program. The CTUIR wants to 
learn from, and benefit by, the successes (and the failures) of other 
tribes participating in the Land Buy-Back Program.
    4. The Department of Interior needs to commit the necessary 
personnel to ensure the timely implementation of the Land Buy-Back 
Program. We have particular concerns regarding the time associated with 
the review and approval of our appraisals of the fractionated trust 
allotments that we have prioritized for purchase under the Land Buy-
Back Program. These reviews will be conducted by the Office of 
Appraisal Services (OAS). The CTUIR has proposed to conduct appraisals 
and have offer letters sent out on the 400 allotments we have 
prioritized for purchase in three waves: the first and second wave will 
involve 150 allotments and the third wave will be of 100 allotments. 
The timing for our outreach efforts, the appraisal of the allotments 
and the schedule for mailing out offers are dependent upon a timely 
review and approval of the appraisals by OAS.
    Since Congressional approval of the Cobell settlement in the Claims 
Resolution Act in 2010, the CTUIR has focused on the Land Buy-Back 
Program to consolidate tribal ownership of heavily fractionated 
allotments and to restore CTUIR ownership to those allotments. Our 
staff have worked diligently with Interior Department and Land Buy-Back 
Program officials to prepare for our participation in the 
implementation of the Land Buy-Back Program on our Reservation. Once we 
finalize our Cooperative Agreement and the associated Scope of Work, we 
are prepared to begin outreach to Indian landowners, to appraise the 
prioritized allotments and to assist in the acquisition of these 
fractionated interests. With increased tribal ownership of these 
allotments, and the associated decrease in fractionated ownership, we 
will be better able to use our Reservation land base to meet the needs 
of our tribal members. The United States will also benefit under the 
Land Buy-Back Program due to the reduction in costs associated with the 
probate of these fractionated interests and the management of IIM 
accounts that hold the income generated on these trust allotments.
    Most importantly, the Land Buy-Back Program is a small but 
important step by the United States to honor our Treaty and to reverse 
the failed allotment policy of the 19th century. Consistent with 
current Federal Indian policy, the successful implementation of the 
Land Buy-Back Program can improve tribal self-determination and self-
sufficiency by reducing fractionated ownership of Reservation lands and 
thereby increasing the ability of tribes to make beneficial use of 
those lands.
    This completes my testimony. Once again, on behalf of the CTUIR, I 
appreciate the opportunity to provide our perspectives on the Land Buy-
Back Program. We look forward to working with the subcommittee and the 
Land Buy-Back Program to ensure its success on our Reservation.
[GRAPHIC] [TIFF OMITTED] T7534.005


                                 .eps__
                                 

 Questions Submitted for the Record by Ranking Member Colleen Hanabusa 
  to Chairman Gary Burke, Confederated Tribes of the Umatilla Indian 
                          Reservation (CTUIR)
    Question 1. What are the day-to-day effects of having such a 
fractionated reservation?

    Answer. As mentioned in my testimony, the 1885 Umatilla Allotment 
Act not only diminished our Reservation, it allotted what remained of 
the Reservation to individual tribal members, leaving very little land 
in tribal trust status. Over three-quarters of the trust lands on our 
Reservation are allotted trust lands, and the large majority of those 
allotments are heavily fractionated. Again, as pointed out in my 
testimony, our Reservation has 1,015 fractionated allotments (out of a 
total of 1,300 allotments on the Reservation) totaling 66,945 acres 
which contain 18,828 fractional interests (i.e., approximately 18 
fractional interests per allotment).
    The fractionalized ownership of trust allotments on our Reservation 
affects the day-to-day management and use of these allotted lands for 
the tribe, the Indian landowners and private businesses doing business 
in Indian Country. The challenges and costs caused by this 
fractionalized ownership are too numerous to count, but set forth below 
is a representative sample:

    (a)  Land Use. Our Reservation has 1,015 allotments that are 
fractionated with over 23 percent having greater than 20 landowners. 
These allotments include productive farm, timber and grazing lands 
that, in many cases, cannot be used because of the sheer number of 
landowners and the cost, difficulty and time associated with securing 
landowner consent.

    (b)  Probate. The CTUIR has adopted an Inheritance Code under the 
Indian Land Consolidation Act that permits (in most cases) the tribe to 
prevent the transfer of allotted trust lands to non-Indians and non-
CTUIR members upon the payment of fair market value to the heirs. Upon 
the death of an Indian landowner, the probate process has become very 
expensive and time consuming due to the large number of fractionated 
interests in trust allotments. This expense is not only borne by the 
CTUIR but also by the Department of Interior's Bureau of Indian Affairs 
(BIA) and the Office of Hearings and Appeals (OHA).

        Complicating this matter further is the recent decision by OHA 
to close its office within the Pacific Northwest BIA Regional Office in 
Portland and to have CTUIR probates handled by an Administrative Law 
Judge (ALJ) in the Sacramento office. The decision to close the 
Portland OHA office was done without any tribal consultation. There is 
a clear need for an OHA office in Portland because of the Inheritance 
Codes that either Congress has enacted or the Department of Interior 
has approved for the Columbia River Treaty Tribes, which includes the 
CTUIR. Each of these tribal codes are similar and the tribes and tribal 
members would benefit by having an ALJ located in Portland who became 
familiar with our codes so that they could be implemented with some 
consistency.

    (c)  Farm Leasing. The CTUIR has compacted the BIA realty functions 
and we manage the leases of allotted farmlands. Annually, there are 
renewals of close to 100 plus farm leases and over 120 USDA/FSA 
contracts. Over 4,000 lease and contract payments are distributed to 
the fractionated land owners. The workload has increased for the tribal 
realty staff, as well as the BIA who approves the leases and the Office 
of Special Trustee who oversees the Individual Indian Money Accounts.

    (d)  Salmon and Floodplain Restoration. The CTUIR has been actively 
engaged in restoring salmon runs in the Umatilla River and its 
tributaries to protect the exercise of our Treaty reserved fishing 
rights. Key to this effort has been restoring floodplains and riparian 
habitat that salmon and other aquatic species require, which has 
required the consent of allotment landowners for access and to perform 
this important work. Again, securing this consent has been made 
considerably more expensive and time consuming due to the large number 
of landowners and the difficulty of locating many of those landowners.

    (e)  Management of Timber and Grazing Lands. The CTUIR efforts to 
manage and protect timber and grazing lands on our Reservation are also 
hampered by the fractionalized ownership of trust allotments. We have 
had timber thinning operations delayed, or stopped altogether, due to 
the inability to make contact with and get the consent of the 
landowners involved. Similar challenges are confronted by our efforts 
to manage and protect grazing lands.

    (f)  Housing. The development of mutual help homes on trust 
allotments has been a particular source of friction due to 
fractionalized ownership. These mutual help homes were constructed by 
our Housing Authority pursuant to a lease between the landowners and 
the Housing Authority. However, once the lease expires, the mutual help 
homeowner needs authorization from the allotment landowners for 
continued occupancy of the home. Securing this landowner consent has 
been difficult, and in many cases the consent has not been received, 
because the landowner(s) who signed the lease when the mutual home was 
built has since died and the number of landowners has increased 
dramatically when the lease expires. We continue to deal with mutual 
help homeowners who have paid for their homes that are on allotments 
where the homeowner has been unable to secure the consent of the 
numerous landowners.

    (g)  Utility Rights-of-Way. The cost, delays and work associated 
with fractionalized ownership of allotments is not only borne by the 
CTUIR and its members, it is also borne by companies that do business 
in Indian Country--such as utilities. On our Reservation, we have 
rights-of-way for electrical, water, sewer, natural gas and cable 
utilities that have fixed terms. These utilities incur considerable 
costs and dedicate considerable personnel and time to locating 
landowners and securing their consent for right-of-way renewals.

    Question 2. Your testimony notes that one of the issues you face is 
trying to consolidate fractionated shares--many of which are owned by 
non-tribal members. Are there special considerations the Department 
must factor in to ensure you are being serviced effectively through the 
Land Buy-Back Program?

    Answer. As mentioned in my testimony, the CTUIR has prioritized 400 
fractionated allotments and 259 mineral only interests for purchase 
under the Land Buy-Back Program. One of the important criteria we used 
in selecting these 400 fractionated allotments was the percentage of 
non-CTUIR member owners of fractionated interests in the allotment. 
Therefore, it will be critical that Land Buy-Back funds be used to 
purchase fractionated interests in these 400 prioritized allotments to 
restore CTUIR ownership to Reservation lands reserved for our 
``exclusive use'' in our Treaty of 1855.

Finally, I appreciate Chairman Young's comments at the close of the 
hearing. We have also been concerned that the Land Buy-Back Program has 
been managed by Department of Interior officials without any direct 
involvement of tribal representatives. We also agree with the 
Chairman's statement that the sooner our tribal lands are consolidated 
the better it will be for tribes. I thank Ranking Member Hanabusa for 
your further interest in my testimony and the work of the subcommittee 
to improve the implementation of the Land Buy-Back Program.

                                 ______
                                 

    Mr. Young. Sir, thank you for your precise statement. For 
the next two guys, 5 minutes right on the button, so thank you.
    Mark, you are up.

  STATEMENT OF MARK L. AZURE, PRESIDENT, FORT BELKNAP TRIBAL 
             COUNCIL, FORT BELKNAP INDIAN COMMUNITY

    Mr. Azure. Good afternoon, Mr. Chairman, committee members, 
and guests. Congressman Daines, I want to thank you for 
allowing me to be here to testify on behalf of the 7,000 
enrolled members at Fort Belknap from the two tribes, the 
Assiniboine and the Gros Ventre.
    I was going to read the testimony, but I won't, because you 
are keeping me at 5 minutes, but I want to echo what Chairman 
Burke, Chairman Berrey and Chairman Finley are talking about, 
and that at Fort Belknap, you know, we feel that we haven't 
been part of this process. And we have made several attempts to 
do that, to send in scope of work, cooperative agreements. And 
waiting, and waiting, and waiting, and not hearing back from 
the folks that are on the other end, you pick up the phone and 
it is a dead dial tone there. So we want to be part of that.
    And I want to echo that the outreach should come from 
tribes, not somebody out here in DC. I know my people, they 
know me. I think they are going to trust me more than they will 
trust anybody else involved in this, whether it is the BIA or 
the Department of the Interior, those staff members.
    We have the same concern, that the overall settlement money 
is not in an account gaining interest, and that we can't seem 
to get our hands on even some administrative money to help us 
implement this thing and get it rolling. And that the outreach 
that is there now, it is a 1-800 number at a regional office 
somewhere. When our tribal members call it, they might not 
receive anything or hear a voice message, and so they are not 
going to try back, and they are going to come frustrated to me, 
and I am going to have to try to explain to them that there is 
nothing I can do for you right now, other than come out here to 
DC, when the opportunity arises, and give testimony, and hope 
that changes how this plan is set in place.
    I guess, other than that, Mr. Chairman, I will yield the 
remaining time, and just hope that this committee hears 
everybody on this panel loud and clear, that the way this thing 
is going now, it is not working. Thank you.
    [The prepared statement of Mr. Azure follows:]
  Prepared Statement of Mark L. Azure, President, Fort Belknap Tribal 
                 Council, Fort Belknap Indian Community
    Good Afternoon Mr. Chairman, committee members and guests, and 
thank you for providing the Assiniboine and Gros Ventre Tribes of Fort 
Belknap an opportunity to express our concerns about the implementation 
of the Land Buy-back Program enabled by the Cobell Settlement. My name 
is Mark Azure and I am the President of the Fort Belknap Indian 
Community Council, the governing body of the Assiniboine and Gros 
Ventre Tribes of the Fort Belknap Indian Reservation in Montana. I am a 
U.S. Army Veteran and a member of the Assiniboine Tribe of Fort 
Belknap. The Fort Belknap Indian Community consists of over 7,000 
enrolled members of the two tribes, for whom I am pleased to offer 
these comments.
    The Fort Belknap Indian Reservation was allotted through a separate 
act of Congress in 1921. Since that time, many original allottees died 
without wills, creating a significant fractionated interest problem. In 
the 1920s there were 1,189 individual allotments issued covering over 
650,000 acres on Fort Belknap. As early as the 1950s the Tribal Council 
utilized various sources of funding to purchase land from heirs of the 
original allotments. Our fathers and grandfathers on the Tribal Council 
saw the detrimental effect that fractionated interests was having on 
the ability to use lands.
    In recent years the source of income to purchase lands has dried 
up. According to the Department of Interior, in 2012, the Fort Belknap 
Reservation had 3,007 fractionated tracts encompassing 570,883 acres 
with 55,329 separate interests that potentially could be purchased if 
sellers were willing.
    At Fort Belknap, we have contracted a Tribal Land Department from 
the BIA to help administer tribal lands under a P.L. 93-638 contract 
for over 35 years. To satisfy our tribal goals, the tribal government 
contributes $180,000 annually under its aid to tribal government 
contract. This action shows our deep commitment to tribal land 
acquisition. We also have experience with buying allotted lands from 
enrolled members. In fact, we have within the last few years spent 
$778,000 on land acquisitions in an attempt to purchase back land for 
our tribes, and since the inception of our Land Purchase program in the 
1970s, over 150,000 acres of allotted lands have been purchased and 
added to tribal inventories. Many other acres have been exchanged and 
consolidated. While these numbers may seem large, unfortunately, our 
lack of resources has held back our overall plan to purchase 
fractionated interests from willing sellers and solve the large 
remaining fractionated interest problem that has plagued economic 
development.
    Our staff has attended national meetings of the Large Land-based 
Tribes for decades, emphasizing the need for tribes to address 
fractionated interests. We have patiently waited ``our turn'' while 
other tribes were successful in receiving funds to purchase 
fractionated interests.
    In 2012, we were excited to see the potential for our Tribal Land 
Purchase plans to receive funding through the Cobell Settlement. We 
looked at the December 18, 2012, Land Buyback Plan of the Department of 
Interior, and were ready to get moving. We attended numerous 
``listening'' conferences, and were frustrated that our many 
suggestions, made by tribal leaders and staff with decades of 
experience and focus on enabling tribal-run programs, seemed to receive 
little consideration.
    When no specific contracts were even proposed by March, 2013, we 
submitted a draft contract in April, 2013, to get the process moving. 
Five months to identify and enable existing tribal programs to begin 
purchasing lands seemed to be long enough. We were then and continue to 
be very concerned that Congress set a 10 year limit on the availability 
of these funds, beginning in November, 2012.
    Unfortunately, we received no feedback on our written proposal and 
agreement of April, 2013. Instead, DOI staff proposed a standardized 
``boilerplate'' agreement to all tribes in June, 2013. While somewhat 
discouraged about no response to our written proposal, we submitted a 
new agreement based on the ``boilerplate'' agreement in late June, 
2013. We incorporated most of the assurances and procedural steps the 
DOI had sought in their draft, but upgraded the agreement to address 
needs at Fort Belknap.
    Again, we received no feedback on our June, 2013 proposal. Instead, 
DOI, almost a year after funds became available for purchasing lands, 
in the fall, 2013, published a process whereby tribes could contract 
with DOI, but advised that they wanted detailed proposals, and then 
they alone would respond and prepare their ``boilerplate'' agreement, 
with no changes to be expected from their prepared draft.
    We have reluctantly assented to this process and submitted a letter 
of interest and a resolution to the DOI. It is now 18 months into the 
120 month timeframe whereby these funds will be available. We know 
people are interested in selling interests. We have applications for 
land sales for millions through our existing processes. Regrettably, we 
are no closer to purchasing these lands than when we started.
    Two of the goals in the 2012 DOI Buy-back Plan were to ``maximize 
tribal participation in the program'' and to ``establish and maintain 
clear communication throughout its operation''.\1\ These were 
appropriate goals. We embraced these goals, and spent significant 
tribal resources in attending meetings and drafting agreements to 
implement these goals. We operated under good faith that DOI meant to 
implement these goals. It is now nearly 18 months after those goals 
were drafted, and we are discouraged that neither of these goals are 
progressing.
---------------------------------------------------------------------------
    \1\ Updated Implementation, Land Buy-back Program for Tribal 
Nations, Summary, Page 2 of 32 (December, 2012).
---------------------------------------------------------------------------
    As far as we know, the Billings Regional Office of the BIA does not 
have a clear plan to implement the Land Buy-back Program for Regional 
Tribes. Our attempts to initiate a specific process here at Fort 
Belknap have had no response. We know that historically, a single 
transaction to be recorded in the Billings Regional Title plant has 
taken 6 months. We cannot comprehend how that office could contemplate 
processing the 50,000+ transactions anticipated in the Buy-back plan 
from Fort Belknap alone over the next several years. We have not seen 
an upgrade in volume capacity in that very important office.
    These funds could mean an unprecedented influx of monies to our 
local economy. At Fort Belknap, the DOI projected $54 million of the 
total available would be needed to fund land purchases. These funds 
will impact our local economy in multiple ways. If we could administer 
the purchase program, local jobs will be created. The services needed 
to support these administrative efforts will support local businesses. 
Purchase funds will go to individuals who often are unemployed 
otherwise. Their families and extended families will all benefit, as 
will local businesses. Tribal government will benefit from the lease 
and use of lands purchased.
    But none of this is happening now, as the process the DOI is 
implementing is uncommunicative and ignores tribal input. We have been 
saying the same things for over a year. The transcripts of the 
listening conferences will affirm our position that we are ready and 
willing and want to administer these funds now.
    The Cobell Settlement was a landmark in U.S. Government and tribal 
relationships. It sought to remedy a long-standing problem of failed 
government administration of resources. Its focus was to redress 
problems created for individuals by failed government process.
    Our leadership has often commented that it is ironic that funds 
paid to redress problems created by failed government administration 
should be proposed to be tightly administered by the same bureaucracy 
that created the problem.
    While not perfect, by any means, our people have elected leaders 
who have administered tribal land buy-back programs for decades. We 
sincerely would like the opportunity to obtain the funds designated by 
Congress, apply them to our existing programs, upgrade those programs 
where necessary, and get busy with the land purchases Congress assigned 
these funds for in the settlement process.
    We know that the DOI has spent a lot of these monies in the last 18 
months on hearings, staff and forms. We are quite concerned that 
millions of dollars which should have been spent on local efforts and 
purchasing lands are now gone, without the purchase of a single square 
foot of land at Fort Belknap! We respectfully ask this body to provide 
oversight and mandate corrections to get these monies to tribes to 
facilitate Congress' intent to purchase fractionated interests.
    Thank you again for the opportunity to provide our perspective.

                                 ______
                                 

    Mr. Young. Thank you. We do have your testimony submitted, 
and definitely we will read it. I do appreciate that comment, 
because we have a vote on, but I want to finish this hearing.
    And so, Mr. Grant, you are up.
    Mr. Stafne. Thank you, Mr. Chairman.
    Mr. Young. That mic on?
    Mr. Stafne. Yes, it is.
    Mr. Young. Pull it into you.
    Mr. Stafne. I will take President Azure's time, so, no.
    [Laughter.]
    Mr. Young. You see this thing here, buddy?
    Mr. Stafne. OK, OK.

STATEMENT OF GRANT STAFNE, COUNCILMAN, TRIBAL EXECUTIVE BOARD, 
             FORT PECK ASSINIBOINE AND SIOUX TRIBES

    Mr. Stafne. Good afternoon. On behalf of the Assiniboine 
and Sioux Tribes of the Fort Peck Reservation, as well as the 
Montana-Wyoming Tribal Leaders Council, I thank you for your 
interest in this important subject. My name is Grant Stafne. I 
am a member of the Fort Peck Tribal Executive Board. I would 
like to thank Chairman Young, Congressman Daines, and the 
members of the subcommittee, for holding this hearing.
    The settlement of the Cobell litigation presents the United 
States with the opportunity to accomplish great good to redress 
decades of mismanagement, and strengthen tribal government 
administration of tribal lands, and advance economic security. 
Tribes obviously welcome any programs that have the potential 
to undo the devastation of fractionated land ownership that 
began when this Congress first enacted allotment acts in 1887. 
The likelihood of the success of these programs can be greatly 
improved by incorporating a few recommendations that many 
tribes, including Fort Peck, have made. In my written testimony 
I have provided detailed descriptions of these recommendations, 
which I will now summarize.
    First, with regard to the Cobell Settlement payments, 
Indian Country would greatly appreciate your assistance to 
expedite the long-overdue payments to members of the trust 
mismanagement class.
    Second, with regard to the $1.9 billion DOI Land Buy-Back 
Program for tribal nations, DOI must establish perimeters for 
cooperative agreements which we have handed in in June, July, 
August, and, just lately, I hand-delivered it to the Secretary 
of the Interior for funding for outreach efforts based on the 
size of the reservation, the number of land owners, and the 
amount of acreage and individual ownership. The Fort Peck 
Reservation is 2.1 million acres. Of that reservation, 954,000 
is still held in trust; 4,165 original allottees were allotted 
land on our reservation, 320 acres with timber allotments. So, 
as you are aware, some tracks of land on our reservation have 
300, 400 owners.
    Third, the Department should immediately disclose land buy-
back program expenditures for administrative costs. At a 
minimum, the Department should provide quarterly reports to 
Congress and Indian tribes of its administrative expenditures 
and land purchases.
    Fourth, tribal negotiations to obtain a cooperative 
agreement should occur at the regional level of the BIA, 
utilizing personnel familiar with our reservations, our level 
of fractionated ownership, and our tribal governments.
    Fifth, the Department should amend its arbitrary decision 
to limit the appraisal shelf life to 9 months. Appraisals 
should have a 12-month shelf life, and a possible 1-year 
extension to control unnecessary costs, and to preserve the 
ability to make subsequent purchase offers.
    Sixth, Indian tribes, not appraisers, should determine 
which reservation lands are purchasable.
    Seventh, Interior should disclose any valuation efforts and 
the cost of those efforts for mineral estates.
    Eight, the Buy-Back Program should not require tribes to 
finance all efforts to apply for and negotiate cooperative 
agreements, contrary to the established practices of startup 
and pre-award allocations in other Federal contract pursuits.
    Ninth, Interior should reconsider policies that foreclose 
purchases at probates and exclusion of fee lands to accomplish 
truly meaningful land restoration.
    And, tenth, in order to comply with congressionally 
mandated Indian self-determination policy, the Department 
should now engage in meaningful consultation with tribes on an 
implementation schedule for the Buy-Back Program, a budget for 
the program, purchase ceiling amounts, the mineral valuation 
and appraisal for each reservation. By implementing these 
simple recommendations, the Interior Department can live up to 
its responsibilities set forth by Congress under the Cobell 
Settlement.
    [Speaking native language.]
    [The prepared statement of Mr. Stafne follows:]
Prepared Statement of Grant Stafne, Councilman, Tribal Executive Board, 
       Assiniboine and Sioux Tribes of the Fort Peck Reservation
    Good afternoon. On behalf of the Assiniboine and Sioux Tribes of 
the Fort Peck Reservation, I thank you for your interest in this 
important subject. My name is Grant Stafne. It is an honor for me to 
serve on our tribes' governing body, the Fort Peck Tribal Executive 
Board, as my parents, June and A.T. Stafne, and my uncle Caleb Shields 
did before me.
    I would like to thank Chairman Young, Congressman Daines, and the 
members of the subcommittee for holding this hearing. The settlement of 
the Cobell litigation presents the United States with the opportunity 
to accomplish great good: provide redress for Indian land owners who 
were victims of the Interior Department's failure to provide an 
accounting of IIM accounts and for some mismanagement of Indian trust 
resources, reduce fractionated Indian land ownership, and attempt to 
redress the negative results of the General Allotment Act through 
restoration of tribal land bases that will promote Indian self-
determination, strengthen and advance the economic security of tribal 
communities, and fulfill the United States' trust responsibility to 
Indians. The foundation for the trust responsibility has its origins in 
our original land cessions to the United States and the Federal 
Government's ensuing obligation to extend its protection to Indian 
tribes and our reserved lands.
    Tribes obviously welcome any program that has the potential to undo 
the devastation of fractionated land ownership that began when this 
Congress first enacted Allotment Acts in 1887. Sadly, in its 35-year 
existence, the allotment of tribal lands to individual Indians resulted 
in the loss of 90 million acres of tribally owned lands. Over the 
years, the daunting task of managing the remaining lands held by 
individual Indians in small fractionated interests established the 
basis for the Cobell litigation brought on behalf of individual 
Indians. Including a program to purchase fractionated land interests 
for restoration to tribal ownership in the Cobell settlement benefits 
tribes and is long overdue.
                       cobell settlement payments
    While payments to individual Indians that were members of the 
accounting class occurred well over a year ago, payments to tribal 
members in the Trust Mismanagement class of the settlement have not yet 
received payments. Payment dates have been delayed throughout the last 
year and many individuals are losing faith that payments are 
forthcoming. Indian Country would greatly appreciate your assistance to 
expedite the long overdue payments to members of the trust 
mismanagement class.
              doi land buy-back program for tribal nations
    Unfortunately, the Cobell Settlement was developed without tribal 
consultation or input despite the significant impact the settlement 
would have on tribal lands. The Land Buy Back Program funding, 
including funds for actual land purchases and administrative costs, 
were determined without tribal input and without consideration of the 
challenges of trust land purchases on a large scale basis. Further, the 
Indian Land Consolidation Act was incorporated wholesale to govern land 
purchases without a review of some of the complexities and burdensome 
provisions of ILCA, in light of the timeframe to expend all purchase 
funds. Indeed, the Cobell settlement ignored fundamental Federal Indian 
policy introduced by President Nixon that ``the Indian future'' should 
be ``determined by Indian acts and Indian decisions.''
    DOI initially developed and released a Land Buy Back Program for 
Tribal Nations implementation plan that detailed the settlement 
components and process for implementation without tribal consultation. 
In the early consultation sessions, tribes were greatly concerned 
about: (1) the award of funds back to the Department of Interior to 
purchase fractionated lands; (2) the establishment of an education fund 
as an incentive for individuals to sell trust interests; (3) 
prohibiting tribes from entering into P.L. 93-638 contracts for land 
buy back implementation; and finally (4) that tribes were relegated to 
providing a priority list of tracts for DOI purchase only. However, 
these components of the Buy Back Program were negotiated by the parties 
and specifically included in the settlement and the 2010 Claims 
Resolution Act. Thus, despite tribal outcry on these issues, the 
standard response has been that neither the parties to the settlement 
or Congress is willing to reopen the settlement or the approving 
legislation. Despite the hesitancy to modify the Settlement or 
legislation, we would propose consideration of minor modifications to 
the settlement agreement and technical amendments to the legislation 
that would authorize P.L. 93-638 contracts for both land purchases and 
implementation efforts (allowing tribal access and control over both 
land purchase and administrative funds), and revise the management of 
the education fund. Tribes have repeatedly expressed their preference 
for allocation of the funds directly to tribes rather than to a non-
profit corporation over which tribes have no control or access to 
funding. Clearly, education funds in the hand of tribes would best meet 
the education goals of tribal people. Federal funds, albeit settlement 
funds, awarded to non-profit entities for the benefit of tribal people 
flies in the face of the government to government relationship and 
marginalizes the desires of tribes to assist their membership meet 
educational goals. Justification to amend the P.L. 93-638 restriction 
is highlighted by the testimony below.
    The Interior Department held several consultations that focused on 
tribal involvement in the Land Buy Back Program. The initial 
Implementation Plan established ceiling amounts of funds for land 
purchases for each the 40 plus Indian Reservations with the most 
fractionated lands and Buy Back staff `opened the door' for tribal 
involvement to assist with any or all of the implementation tasks of 
Outreach, Land Research, Valuation and Acquisition. Tribes believed 
they could implement any of the four tasks and would receive a portion 
of the total amount of available administrative funds for the efforts. 
Tribes actually understood they could seek 15 percent of the ceiling 
amount for administrative efforts. However, the Buy Back Program, 
without tribal consultation, moved forward with policy decisions that 
now limit tribal involvement to primarily to the outreach task. While 
we have been attempting to determine appropriate tribal involvement, 
DOI has proceeded with internal processes to conduct land research, 
modify the National Title system to generate offers and establish an 
acquisition process. The result is that tribes will actually only be 
involved in the Outreach tasks as DOI has moved forward with 
establishing processes for the other identified tasks which clearly 
further limits tribal involvement in the implementation process.
    The constant revisions and lack of clear guidance in the program 
leaves the Fort Peck Tribes and Tribes in Montana and Wyoming 
frustrated and disappointed that this rare opportunity for tribal land 
restoration may fall short of expending all land purchase funds within 
the mandated 10-year period. To avoid such a pitfall, tribal support 
and tribal participation is critical. Tribes can best advocate for the 
program and discuss in detail the drawbacks of fractionated land and 
the benefits of tribal land consolidation.
                         cooperative agreements
    The Land Buy Back Program made a policy decision to utilize 
`cooperative agreements' for tribal participation in the program 
although `cooperative agreements' are rarely utilized in Indian Affairs 
and have little regulatory guidance. DOI has developed an application 
process to obtain a cooperative agreement that consists of a Scope of 
Work Template (allows tribes to specify tasks choose to undertake), a 
detailed Statement of Work narrative, and SF424 Forms to receive 
Federal assistance. However, no guidance or parameters have been 
established for tribes to conduct outreach efforts. Without parameters 
and formulas for funding, interested tribes, including Fort Peck, have 
engaged in a guessing game with DOI to negotiate cooperative 
agreements.
    Since I last testified on this subject in December before the 
Senate Indian Affairs Committee, we have been coordinating with a 
Tribal Relations Liaison, with the DOI Land Buy Back Program, located 
here in Washington, DC to submit a statement of work that meets the 
program requirements, without specific guidance on those requirements. 
The specific cost and equipment estimates required exceed the level of 
specificity for other contracts with the BIA. While we have had 
continuous discussions with Buy-Back Program staff, I am sorry to 
report that we still have no agreement on basic concepts such as the 
amount of funding, number of staff persons, and equipment needs to 
finalize a cooperative agreement. Our experience at Fort Peck is 
consistent with that of other tribes in the Rocky Mountain Region and 
across large land based reservations. As of this date, a very small 
number of tribes have achieved cooperative agreements to participate in 
implementation efforts despite interest and application from many 
tribes.
    The cooperative agreement negotiation process has been insulting to 
Fort Peck since I personally have worked in virtually every aspect of 
Indian land acquisition, primarily in local and regional real estate 
positions with the Bureau of Indian Affairs including the Deputy 
Superintendent of Trust Services at the Fort Peck Agency. Following 
Federal service, I went to work for my tribes as the Director of the 
Fort Peck Land Buy-Back program.
    In a little over a year, our tribes re-acquired over 10,000 acres 
of land on our Reservation using tribal funds. We have the capacity, 
professionalism and familiarity with trust lands on Fort Peck 
Reservation to efficiently implement land purchases. Instead, we are 
wasting time and money with lengthy negotiations that have yielded no 
positive results.
    The Buy-Back Program appears to benefit the Federal Government 
first, and Indian beneficiaries, in this case, tribes second. That very 
notion is reminiscent of the Federal Indian policies of yesterday: 
policies that resulted in the eradication of the American bison, the 
removal of Indian children, and the taking of Indian lands; policies 
that were intended to benefit the government in dealing with ``the 
Indian problem.''
    In addition to the above suggestions to revise the settlement and 
legislation, we suggest the following revisions of the current DOI 
policy determinations to improve the implementation of the Buy Back 
Program.
                            recommendations
    First, DOI must establish parameters for Cooperative Agreement 
funding for outreach efforts based on the size of the reservation, the 
numbers of landowners and amount of acreage in individual ownership. 
Funding must be proportional to specific outreach tasks appropriate for 
each particular reservation and not set at a flat $500,000 per 
reservation as has been communicated to Fort Peck and other tribes.
    Second, the Department should immediately disclose Land Buy Back 
Program expenditures for administrative costs. DOI has provided no 
budget information for the new positions created, both at the DC level 
and in Acquisition centers, no information on the costs to enhance the 
Trust Accounting and Asset Management System (TAAMS) to implement Land 
Buy Back efforts and most importantly, the cost of valuation efforts. 
No information has been provided, and clearly no consultation 
attempted, regarding expenditures of the administrative funds. Further, 
DOI has not disclosed financial information on the status of program 
purchases with the amount expended in contrast to the established 
ceiling amounts to effectively determine willingness of individuals to 
sell interests. No information on the costs for the valuation processes 
has been disclosed. Full transparency is necessary to determine whether 
the established 15 percent administrative fee amount may need 
modification for full expenditure of the land purchase funds and to 
determine how unexpended purchase funds may be reallocated. At a 
minimum, the Department should provide quarterly reports to Congress 
and Indian tribes of its administrative expenditures, land buy back 
purchases and time-table to keep Congress and the tribes apprised of 
Department progress to expend the $1.4 billion allocation in a timely 
manner.
    Fourth, tribal negotiations to obtain a cooperative agreement 
should occur at the Regional level of the Bureau of Indian Affairs 
utilizing personnel familiar with our reservations, our level of 
fractionated ownership and our tribal governments. Working with the new 
Tribal Liaisons at the Central Office level of the DOI has been slow 
and ineffective.
    Fifth, the Department should amend its arbitrary decision to limit 
the appraisal shelf-life to 9 months. Appraisals should have a 12 month 
shelf-life and the possibility of a 1-year extension consistent with 
current appraisals of trust. The limited shelf-life will likely result 
in additional costs to update outdated appraisals and will foreclose 
sending purchase offers out a second time if little success was 
achieved in the first round of purchase offers.
    Sixth, Indian tribes, not appraisers, should determine which 
Reservation lands are purchasable in Land Buy Back Program. Presently, 
there is no individual consultation with tribes before DOI determines 
which land interests are determined purchasable and non-purchasable. 
Tribes as the intended beneficiaries of the land purchases must be 
informed about the criteria to determine lands non-purchasable and have 
an opportunity for input on that determination. Congress should insist 
the BIA discontinue exercising overbroad authority and place 
decisionmaking authority in the hands of elected tribal governments who 
are accountable to tribal members.
    Seventh, DOI should disclose any valuation efforts, and the cost of 
those efforts, for mineral estates. DOI has stated that it has the 
capacity to render values for mineral estates but has provided vague 
and topical information on the process and the extent of actual 
valuation efforts. Instead, it appears that DOI is expending limited 
administrative funds to review fractionated interests and 
``mineralize'' those interests or determine that the mineral interest 
has development potential and must be excluded from the list of 
purchasable tracts. Excluding tracts that are ``mineralized'' will 
limit Buy Back Program success on numerous reservations including Fort 
Peck. DOI should allow landowners to reserve his/her mineral estates 
and sell the surface estates. Currently, the DOI policy for the Buy 
Back Program is to restrict separation of surface and mineral estates, 
which will deprive many individuals from participation in the Program.
    Eighth, the Department should obtain the consent of the tribal 
government before undertaking a reservation-wide appraisal, and provide 
results of appraisal activities to tribes. Further, the appraisal 
process should be consistent with the tribal government's land use 
plans.
    Ninth, the Buy Back Program has determined that tribes must finance 
all efforts to apply for and negotiate a cooperative agreement, 
contrary to the established practices of startup and pre-award 
allocations in other Federal contract pursuits, primarily for P.L. 93-
638 contracts. The application process has been burdensome and labor 
intensive. The Interior Department is expending Buy-Back funding 
setting up its own capacity to administer the Buy-Back Program. 
However, tribes are precluded from reimbursement for precious tribal 
resources that are expended the under Cooperative Agreement process. A 
revision of the policy to allow for startup and pre-award costs would 
facilitate a larger number of responsive applications.
    Tenth, the DOI should reconsider policies that foreclose purchases 
at probate and the exclusion of fee lands to accomplish truly 
meaningful land restoration. Additionally, tribes that have on-going 
land purchase activities could be reimbursed for those purchases for a 
cost effective expenditure of the land purchase funds.
    Eleventh, in order to comply with Congressionally mandated Indian 
Self-Determination policy, the Department should now engage in 
meaningful consultation with tribes on the implementation schedule for 
the Buy Back Program, a budget for the Program, purchase-ceiling 
amounts, the mineral valuation and mass appraisal processes, for each 
Reservation.
                               conclusion
    Unless Congress acts now to require meaningful consultation, it 
appears that the Interior Department intends to use the Buy-Back 
Program as nothing more than a vehicle for closure of Individual Indian 
Money Accounts. Surely Congress intended more when it appropriated 
nearly 2 billion dollars to the Land Consolidation Fund.
    As now contemplated, the Department's Land Buy Back Program will 
have limited impact on the Fort Peck Indian Reservation. Under the Fort 
Peck Allotment Act, roughly two-thirds of the original 2.1 million 
acres of tribal lands were allotted or opened for Homesteading. Now, 
over half of our Reservation is held in fee simple status, mostly by 
non-Indians and such lands are excluded from the Buy Back Program. True 
land consolidation can occur on a Reservation like ours only if all 
interests including fee interests are purchased, including those 
interest that are no longer held in trust.
    I will conclude by saying that while Congress struggles to 
determine appropriate government funding levels, Indian Country is 
disparately affected. Conditions in Indian Country remain among the 
worst in the country. Indians continue to have the highest rates of 
unemployment, poverty, infant mortality, shorten life expectancy, 
diabetes, heart disease, chemical dependency, and suicide, to name a 
few. The list is long and must be reversed.
    These conditions are a direct result of Federal policies over the 
last two centuries; polices that promoted paternalistic treatment of 
Indians and a system of political patronage that was wholly 
inconsistent with the highest fiduciary obligations of the United 
States as our trustee. These policies, in many instances, were designed 
to advance well-being of non-Indians, to the detriment of the Indian 
population. One of those policies resulted in the loss of 90 million 
acres of Indian held lands. The Buy-Back Program cannot give full 
redress for that loss or its effects, but the Trust Land Consolidation 
Fund does have the potential to fulfill that to which its name aspires 
if implemented by the Interior Department in close partnership with 
Indian tribes.
    Tribal governments are the ultimate beneficiaries of reducing 
fractionated trust parcels on reservations. To ensure that our land use 
goals are realized, the Department must consult with us. The BIA should 
expend the proceeds of the Buy-Back program only in a manner that 
reflects the needs of the Reservation community.
    Thank you for the opportunity to share our perspectives and 
concerns. I would be happy to answer your questions.

                                 ______
                                 

 Questions Submitted for the Record by Ranking Member Colleen Hanabusa 
 to Grant Stafne, Councilman, Tribal Executive Board, Assiniboine and 
               Sioux Tribes of the Fort Peck Reservation
    Question 1. With regard to Cobell Settlement payments--please help 
the committee understand what type of responses members of your tribe 
have gotten from either the Department or the Garden City Group, when 
they call to ask about the status of Trust Administration Class 
payments.

    Answer. Ranking Member Hanabusa, thank you for your interest in the 
Cobell Settlement payments. Payments to the Trust Administration Class 
have been seriously delayed. Initially, the Garden City Group informed 
class members that payments would be made in December, 2013. However, 
to date no payments have been made.
    Unfortunately, neither Garden City, nor the Department of Interior, 
has directly communicated with landowners to explain the delay. 
Instead, Garden City has issued public statements indicating that the 
delays have been caused by the Department of Interior. Interior has not 
communicated reasons for the delay to class members or tribal leaders. 
Information provided to individual landowners by the Department of 
Interior call center has been vague and information provided varies 
from call to call.
    Moreover, the Department of Interior has not confirmed the final 
membership of the Trust Administration Class. In fact, we understand 
that Department has allowed submission of appeals from persons claiming 
omission from the historical accounting class. Tribes have not been 
informed regarding this appeals process, the number of appeals filed, 
the criteria to resolve an individual appeal, and the financial impact 
of expanding the historical accounting class. The financial impact is 
crucial as it will reduce the amount available for Trust Administration 
Class payments. The inclusion of a Trust Administration Class to settle 
mismanagement of trust lands and assets claims generated the majority 
of criticism of the settlement. Given the time that has elapsed since 
the Cobell Settlement was announced, it is deeply troubling that Trust 
Administration Class members have yet to be informed regarding the 
timing and amounts of settlement payments.

    Question 2. You criticize the Department for not conducting 
meaningful consultation with tribes. In your opinion, what would 
meaningful consultation look like and how would it differ from what the 
Department is presently doing?

    Answer. Thank you. As I indicated in my written testimony, the Buy-
Back Program was developed by the Department of Interior unilaterally, 
without tribal involvement, and in disregard of the congressionally 
mandated Self-Determination policy. Unfortunately, given the time 
constraints placed upon the Department for administering the Program, 
it is now impractical for the Department to go back and conduct 
meaningful consultation on the planning and development of the Program. 
However, in order to comply with congressional policy, the Department 
should, at the very least, engage in meaningful consultation with 
tribes and individual Indians on every affected Reservation. That 
consultation must necessarily pertain to the implementation schedule, 
purchase ceiling amounts, mineral valuations, and the appraisal 
processes for each Reservation.
    In my written testimony, we provided the committee with 11 
recommendations for improving the Program. In our view the best way for 
the Department to engage in meaningful consultation is engage tribes in 
a dialog on each of those recommendations. I will not reiterate those 
11 recommendations here. Instead, I would like to highlight a couple of 
areas where direct consultation with individual tribes is critical.
    First, the Department has given appraisers discretion to determine 
which Reservation lands are purchasable and which are not. In many 
cases these decisions have be made without consultation by the United 
States as the trustee, or by the tribes as an ultimate beneficiary. 
This grant of authority outside the trustee-beneficiary relationship is 
an affront to tribal sovereignty, a breach of the Trust Responsibility, 
and is fundamentally unfair to individual Indian landowners.
    The Department should engage in one-on-one consultation with each 
tribe in order to determine which tracts of land are purchasable and 
which tracts are not. This consultation should include in-person 
meetings with Tribal and Federal technical staff to discuss the 
criteria used in determining whether tracts are purchasable. Prior to 
such discussions, tribes will need information from the Department 
specific to their Reservation concerning any criteria the Department 
believes appropriate for omitting certain categories of tracts.
    It is important to note here the difference between tracts and 
interests. A tract is a parcel of land recorded and managed by the 
Department as a unit. Generally, tracts were allotted to individual 
Indians or retained by a tribe. Each tract is assigned a specific 
number. Interest or interests refer to the various ownership interests 
of a particular tract. As you know the primary purpose of the Buy Back 
Program is to reduce the number of highly fractionated interests.
    Tribes understand that there are legitimate reasons for objective 
determinations as to whether particular interests are purchasable, such 
as interests that may be held by landowners deemed non compos mentis, 
interests held by a minor, encumbered by a life estate or interests in 
probate status. However, determining whether entire tracts are 
purchasable is a decision which requires direct tribal involvement. 
Additionally, tribes should have an opportunity to cure the issue 
rendering the entire tract as non-purchasable, such as the removal of 
an abandoned home, etc. The individually owned tracts are currently in 
trust, under Bureau of Indian Affairs management, and will remain in 
trust while under tribal ownership if purchased. Thus, the existence of 
abandoned buildings, barns, corrals, or other un-sued improvement pose 
no additional Bureau of Indian Affairs management responsibilities than 
those that already exist and should not form a basis to omit tracts 
from the purchasable list.
    Second, the Department should immediately engage tribes in 
individual discussions about how the funds agreed upon in the 
cooperative agreement process should be held. The Department has made a 
unilateral decision to reimburse tribes for activities under 
cooperative agreements, or when deemed appropriate advance certain 
funds in the Department's discretion. The Department should discuss 
with each tribe during the negotiation of cooperative agreements what 
protocol can be established for tribes to draw down funding upon 
execution of a cooperative agreement. We understand that the Department 
may wish to ensure that the funding is protected and available to 
provide intended services. However, there are many ways to provide such 
assurance, while at the same time allowing tribal programs to enhance 
the funds available by depositing the funds in interest bearing 
accounts. As we understand it, no interest is being earning on the Land 
Consolidation Fund.
    I urge the committee to demand meaningful consultation by the 
Department with tribes and Indian beneficiaries and require the 
Department to execute the Self-Determination laws and policies 
prescribed by Congress.

                                 ______
                                 

    Mr. Young. I hope you said ``thank you.''
    [Laughter.]
    Mr. Young. Because you said, ``Oh, that is it, buddy''----
    Mr. Stafne. Assiniboine and Sioux. We have two tribes on 
our reservation.
    Mr. Young. OK. Mr. Grijalva, would you like to ask 
questions?
    Mr. Grijalva. Thank you, Mr. Chairman. I am going to submit 
the questions, thank the leaders that are here, and the 
questions as to the difference between self-determination 
contracts and cooperative contracts, and sharing the 
frustration that you pointed out.
    This has been too long, and needs to be expedited. And if 
there are things that we can do, as a Committee, Mr. Chairman, 
to expedite and still assure all the accountability that is 
necessary, I think we should move in that direction. Thank you.
    Mr. Young. I thank the gentleman, because we do plan on 
introducing legislation. I hope we will be working with you to 
solve some of these problems.
    Mr. Daines.
    Mr. Daines. Thank you, Mr. Chairman, and I really do 
appreciate you holding this hearing, this important issue. And 
as you mentioned, this is a ticking time clock right now. And 
where is the incentive for the Federal Government? Because once 
the clock expires, it goes back to the Treasury.
    Mr. Young. Right.
    Mr. Daines. And this is why we have to be here, as the 
accountability here, to get something done.
    As I mentioned, you know, Montana is home to seven 
federally recognized Indian reservations, which are among the 
highest fractionated in the country. At the same time, back 
home in Montana, our unemployment rates are at or near 50 
percent out in Indian Country. And fractionation makes economic 
development and access to essential services very, very 
challenging. And navigating this Federal Government bureaucracy 
becomes even more complex, as we heard from our witnesses here 
today. And the Land Buy-Back Program has provided Indian 
Country with the means to improve their future. However, we 
hear today that the program is not working, and the hope in 
Indian Country is turning into frustration.
    You know, I toured several of the reservations in Montana 
in the beginning of this year. And the implementation of the 
Land Buy-Back Program was the highest issue of concern for most 
tribes. When every tribe is experiencing similar challenges, 
and we heard it here. I mean we heard it across Indian Country 
in Montana, and now we hear it expanded across Indian Country 
across the United States.
    I think we see that the problems here must be systemic, and 
I hope today's hearing sheds some light on these issues and 
allows us to explore ways to help this program work for Indian 
Country. So thank you for inviting from Montana these Montana 
tribal leaders, President Mark Azure of the Fort Belknap Indian 
Community Council, and Councilman Grant Stafne from the 
Assiniboine and Sioux Tribes.
    Let me start with President Azure. Your testimony was 
enlightening. I appreciate you called the audible there, like 
Peyton Manning, and you just kind of spoke from your heart and 
your head, as well. I was struck by the dead dial tone comment. 
The tribes' difficulties in dealing with the BIA are 
unacceptable. And please know I am eager to help improve these 
lines of communication, and do what I can to strengthen the 
tribes' voice throughout this process.
    But one issue that struck me was how you mentioned the Land 
Buy-Back Program as being ``tightly administered by the 
bureaucracy that created the problem in the first place.'' It 
is frustrating to hear that the Federal Government struggles to 
fix its own mistakes.
    Could you expand on how the program would improve, Mr. 
President, if the Fort Belknap Tribes had more involvement in 
the implementation of this program from the very beginning?
    Mr. Azure. Congressman Daines, I think, just on the 
surface, that we would be engaged from day one, that we would 
play a huge role in it, and that at Fort Belknap we have had a 
land department there, contracted from the BIA, for over 35 
years. And so, we have worked those kinks out.
    We understand what you have to do, and that dealing with 
our tribal members and I am sure these other chairmen and 
Councilman Stafne will say the same thing. We know those folks. 
And anybody in the room, in this room right now, they trust us 
the most. They might not trust us all the time. But out of 
everybody in here, they will trust us first.
    And that, you know, when you are involved in this, if we 
are given participation, then we take ownership in it. That 
means it is ours, and that it is up to us to make sure it 
doesn't fail.
    And in talking with some folks yesterday, I was told that 
the settlement wasn't put in place to create economic 
development. But you mentioned across Montana on reservations, 
that unemployment is at 50 percent, probably higher on other 
reservations. But I think, for a short term, that is exactly 
what it is going to do, it is going to interject dollars into 
our communities, and put some folks to work. And that is where 
I get the passion that if it means that I get to put 6 people 
to work or 20 people to work, then they are not depending on 
those other social programs that I oversee. And at some point 
during the fiscal year, I might have to lock the door because 
there is no money to pay those folks that are sitting there.
    So, again, Congressman, I think it goes back to if we were 
allowed to participate, we would have ownership. We know the 
people the best, we know the land the best. And we would ensure 
that it wouldn't fail. Thank you.
    Mr. Daines. Thanks, Mr. President. I have a couple 
questions for Mr. Stafne, but I am out of time, Mr. Chairman.
    Mr. Young. You are out of time, and we are out of time, if 
you want to vote. I am going to go ahead and stay here. If you 
want to stay here, you are welcome.
    Mr. Daines. You know, let me get these questions going with 
Mr. Stafne. How much time do we have left on the vote? Is it--
--
    Mr. Young. You have 2 minutes and 41 seconds. But go ahead, 
and I will let you ask two more questions.
    Mr. Daines. OK, all right.
    Mr. Young. Then I am going to bang the gavel, so make them 
quick.
    Mr. Daines. All right. Mr. Stafne, you have given us a list 
of 10 recommendations. I wonder if you could prioritize your 
recommendations that will be at the top three or four.
    And the second question, then I am going to have to go 
vote, but we will get it caught in the record, and that is you 
have suggested the Buy-Back Program should be administered 
under the Indian Self-Determination and Education Assistance 
Act. That is P.L. 93-638. How hard would it be for us to make 
that happen?
    So, there are the two questions. The Chairman will record 
that here, and I am going to have to go off and vote. So, Mr. 
Stafne?
    Mr. Stafne. Thank you, Mr. Congressman, Congressman Daines, 
for the question.
    Regarding your first question, 10 recommendations on my 
bullet points. Our cooperative agreements, I would put that on 
number one, maybe consultation and consideration of tribal 
interests and appraisals. Transparency, we need transparency, 
and then, moving the process down to Rocky Mountain Regional 
Office.
    And 638 question, we can hopefully, with your help, get a 
technical amendment to the Indian land consolidation. More 
specifically, 25 U.S.C. Sec. 2212, as well as a minor 
adjustment to the settlement agreement for Indian land 
consolidation. Thank you.
    Mr. Young. Thank you. Mr. Roberts, you have heard all this. 
I will give you a chance to respond, and then I will ask you a 
question.
    Mr. Roberts. OK. I think, in terms of what the tribal 
leaders have said here at the table, I think that there are a 
lot of things that I agree with them about. And some of which 
is that what I am hearing is we want to implement this quickly 
and get money out to Indian Country. Right? And we are for 
that.
    This is a $1.9 billion program. It got up and running in 
December 2012. We said very shortly after it got up and running 
that our goal was to get initial purchases out at a couple of 
locations. We went to one reservation that was extremely 
fractionated, Pine Ridge. We went to another reservation, 
Makah, that sounds a little bit more like Quapaw, in terms of 
not the level of fractionated interests. We are having some 
lessons learned there, but we are looking to ramp up, and we 
need to ramp up, because we only have 10 years.
    And I have heard, Chairman, you say it, I have heard the 
tribes say it, nobody wants this money to go back to Treasury 
at the end of 10 years. We are focused on spending all of the 
money over the next 10 years. And, quite frankly, some of the 
tribal leaders have said this, is that the money itself, the 
$1.9 billion, that is probably not enough money to solve the 
problem.
    So, you know, we are working as fast as we can. I think 
that this is helpful, Chairman Berrey laying out, he is ready 
to go. I have heard that from a handful of other tribes. And I 
know that Fort Peck and Fort Belknap, I know they want to be 
ready to go, and I agree with them. Tribes need to be the face 
of this program. They are not going to sell their interests 
because Kevin Washburn or I are telling them to do so. They are 
going to do it because these tribal leaders are supportive of 
the program. So I think we have a great opportunity here to do 
that.
    Mr. Young. We are going to work on legislation, and not 
adversarially with you, I hope, and the Department. 638 was 
opposed by the Department. It is in the law. We have to change 
that. And I hope we have your support in doing so, because I 
think it is the smart way to go. I think it would make 
everybody happy at this table, and it would work much better, 
because they are feeling left out, even though you are doing 
your best.
    You are relatively new on the block. I am not doing this 
personal, I want you to know. But when we write this 
legislation, because I think it will go very quickly, I want 
your participation in it, like listen to recommendations, so we 
can get this done and consolidate those fractionated areas. And 
there is a feeling, with all due respect, this is coming from 
Washington, DC. That settlement really shouldn't have been 
about that.
    And, by the way, I opposed that settlement. I opposed it 
vividly, because I don't think it was enough money. If you look 
at the figures I had long before it was ever settled, we are in 
the $27 billion range. And we ended up with $1.9 billion. 
Everybody is, ``Oh, that is a lot of money.'' You look at the 
mismanagement of the Department of the Interior, and the taking 
of monies away from the tribes by every method they had, $1.9 
billion doesn't come close to it. So I just want you to know 
that is where I am coming from.
    So, I hope I have, each one of you chiefs there, I guess 
you are all chiefs, I appreciate your statements, because you 
have made some progress. But I think you will work better if we 
have a small piece of legislation we call technical 
improvements upon. If we had to pass this solution, and they 
had this, there is no reason why it can't be done.
    And, by the way, I am going to be a little nasty now. Who 
is in charge of this? Are you, Mr. Roberts? Are you in charge 
of this?
    Mr. Roberts. No, Chairman. The Deputy Secretary, Mike 
Connor, and the executive board of the Department of the 
Interior, Secretary Salazar established the executive board. 
They are in charge of it. And Deputy Secretary Mike Connor 
chairs that board.
    Mr. Young. OK. Who is on the board?
    Mr. Roberts. It is Solicitor Tompkins, Assistant Secretary 
Washburn, Director of BIA Mike Black, Director of BLM, and the 
Deputy Assistant Secretary for Technology, Information, and 
Business Services.
    Mr. Young. But there is nobody from the tribes. Is there?
    Mr. Roberts. [No response.]
    Mr. Young. No. I don't want to put you on the spot now, 
because you didn't pick them. But, see, that is the problem. 
There isn't that communication. Are all you guys going to be 
here tomorrow, or do you have flights out of here?
    Mr. Stafne. I will be here tomorrow.
    Mr. Young. The rest, can they, Larry, can they sit down 
with that part of that board, or the two guys in charge, and 
give them the suggestions they have given me, and see if we 
can't do some of this executively, and get it done quicker, 
without us having to go through legislation? Because this body, 
the total congressional body, is sort of like a snail that 
doesn't have any salt on it. It doesn't go very fast. And I 
would like to see this thing, because the sooner we get these 
reservations consolidated, it is going to be better for the 
tribes.
    Now, not to put you on the spot, Mr. Roberts, but can they 
sit down and meet with these people?
    Mr. Roberts. Well, I know Assistant Secretary Washburn is 
out on travel, he is not in the office tomorrow. I don't know 
what the other schedules are----
    Mr. Young. But there are two guys in charge of this you 
told me.
    Mr. Roberts. Well, there are----
    Mr. Young. There are two guys in charge of this program. 
There is a board, but the board doesn't make all the decisions. 
You have two CEOs, or what do you call it, making these 
decisions, right?
    Mr. Roberts. It is the Deputy Secretary with the board. So 
it is----
    Mr. Young. Wait a minute----
    Mr. Roberts. The Deputy Secretary chairs the board.
    Mr. Young. Wait, wait. All due respect, now.
    Mr. Roberts. Sure.
    Mr. Young. If that is the case, no wonder it is not 
working, because they don't have the time. There should be one 
person in charge of the Cobell solution expediting the process. 
A board never works, anyway, you know? I mean I am just looking 
for solutions, Larry.
    Mr. Roberts. I hear you, Chairman. You know, I am happy to 
meet with any of these tribal leaders tomorrow that want to 
meet, and hear more directly from them. I know Chairman Berrey 
was talking about how he has had a cooperative agreement 
submitted. I want to talk with him about that after this 
hearing. I just don't know everyone's schedules. That is not in 
my briefing book.
    Mr. Young. All right. But you understand, you guys? This is 
the way to get this done. And if they don't want to do it, 
being the Department, I am going to slow-walk you, I want to 
know that. And then we can solve this problem. If you don't 
want to do it, Mr. Washburn doesn't want to do it, you know, 
then you are going to have a little problem. Because this 
settlement was inadequate to begin with, and we are trying to 
take that inadequacy and make it work.
    Mr. Roberts. Yes, we are----
    Mr. Young. That is what I want to do.
    Mr. Roberts. We are all on the same page, Chairman.
    Mr. Young. All right.
    Mr. Roberts. We all want it to work.
    Mr. Young. Good enough. Well, thank you all. And there is a 
vote, and if I miss it, you go home and tell my constituents I 
missed the vote because I was willing to sit here and to listen 
to your questions and your answers and your presentations. I 
thank you, because this is an issue I want to settle. And let's 
get on with it.
    And, Mr. Roberts, you go back and tell Mr. Washburn that 
this is one of my priorities. OK? You got it. Thank you very 
much. The committee is adjourned.

    [Whereupon, at 3:07 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

  Prepared Statement of The Honorable Peter DeFazio, Ranking Member, 
                     Committee on Natural Resources

    Mr. Chairman, thank you for holding this hearing today. I want to 
begin by welcoming a fellow Oregonian, Chairman Gary Burke of the 
Umatilla Tribe. Chairman Burke, I had the pleasure a few weeks back of 
meeting some young leaders from your tribe who were in town for a Close 
Up trip and now I am happy to see one of their role models here in 
person today. I am glad you made the long trek out here and I look 
forward to hearing your testimony.
    The $3.4 billion Cobell Settlement was reached in order to resolve 
breach of trust litigation between a class of approximately 500,000 
Individual Indian Money (IIM) account holders and the Federal 
Government. $3.4 billion seems like a lot of money. But we have to 
remember, it is aimed at compensating individuals for whom the United 
States has a legal fiduciary relationship and toward whom it failed 
miserably in that duty. After over a decade of litigation, this 
settlement not only compensates class members directly, but also begins 
to address the fractionated land problem on Indian reservations.
    The Department of the Interior is currently tasked with 
implementing the settlement and I have heard that some tribal leaders 
are skeptical of their methods. I look forward to hearing testimony 
from the Department and from tribal leaders. As this settlement is 
implemented, I think we not only have to keep the Department's feet to 
the fire, but also to be willing to legislate when appropriate to 
enable them to discharge their duties for the benefit of tribes.
    I yield back.

                                 ______
                                 

 Prepared Statement of the Hon. Rauul M. Grijalva, a Representative in 
                   Congress from the State of Alaska

    Thank you, Chairman Young.
    I want to start by welcoming our tribal leaders who have come from 
far and wide to be here. Thank you for taking time out of your busy 
schedules to help us understand what you are facing with regard to the 
Cobell Settlements implementation.
    Mr. Chairman, our Nation has a sordid history of not living up to 
its trust responsibility toward American Indians. This fiduciary 
obligation is, in a sense, a bargained for exchange. The United States' 
expansion from 13 small colonies to a continental superpower was only 
made possible by working with tribal leaders to exchange lands for 
certain rights and benefits. Generally speaking, the United States has 
an obligation to act as a trustee for the various tribes and individual 
Indians--for many of whom it holds land in trust. When it fails in that 
duty, it is legally responsible to compensate those affected.
    The Cobell Settlement grew out of such a breach of the trust 
obligation whereby the Department of the Interior grossly mismanaged 
the assets of IIM account holders. Eloise Cobell, on behalf of a class 
of approximately 500,000 similarly situated individuals, began class 
action litigation in 1996. This dispute was finally resolved in 2012 
when all appeals associated with the settlement were exhausted. Now, 
the Department of the Interior is charged with implementing the 
settlement.
    Given that the same Department that caused this problem is charged 
with implementing its solution, it is understandable that tribes are 
concerned about the way the settlement is being implemented and they 
fear the potential for mismanagement. That is why one of the most 
important things lawmakers can do is to ensure the Department is 
implementing the settlement in a way that puts the needs and concerns 
of tribes first. To that end, I appreciate you holding this hearing, 
Mr. Chairman, because I think the time is right for Congress to check 
on the Department's progress. I also think Congress should be open to 
acting through legislation if and when it is needed to ensure the 
Department has everything it needs to get the job done.
    I yield back.

                                 [all]
                                 
</pre></body></html>
